<html>
<title> - ENDING HOMELESSNESS AMONG VETERANS: VA'S PROGRESS ON ITS FIVE-YEAR PLAN</title>
<body><pre>[Senate Hearing 112-398]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-398

ENDING HOMELESSNESS AMONG VETERANS: VA'S PROGRESS ON ITS FIVE-YEAR PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 14, 2012

                               __________

       Printed for the use of the Committee on Veterans' Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






         Available via the World Wide Web: http://www.fdsys.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
73-402 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director









                            C O N T E N T S

                              ----------                              

                             March 14, 2012
                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Brown, Hon. Scott P., U.S. Senator from Massachusetts............     3
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     4
Begich, Hon. Mark, U.S. Senator from Alaska......................    39
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................    41
Boozman, Hon. John, U.S. Senator from Arkansas...................    80

                               WITNESSES

Strickland, Sandra, U.S. Army Veteran............................     6
    Prepared statement...........................................     8
Rogers, Reverend Scott, Executive Director, Asheville Buncombe 
  Community Christian Ministry; accompanied by John Driscoll, 
  President and Chief Executive Officer, National Coalition for 
  Homeless Veterans..............................................    11
    Prepared statement...........................................    12
Four, Marsha, Chair, National Women Veterans Committee, Vietnam 
  Veterans of America............................................    18
    Prepared statement...........................................    21
Halliday, Linda, Deputy Assistant Inspector General for Audits 
  and Evaluations, Office of Inspector General, U.S. Department 
  of Veterans' Affairs; accompanied by Gary Abe, Director, 
  Seattle Audit Division, Office of Inspector General, Department 
  of Veterans' Affairs...........................................    28
    Prepared statement...........................................    30
Dougherty, Pete, Acting Executive Director, Homeless Veterans 
  Initiatives Office, U.S. Department of Veterans Affairs; 
  accompanied by Chanel Curry, U.S. Army Veteran; Lisa Pape, MS, 
  LISW, National Director, Homeless Programs; and Maura A. 
  Squire, Homeless Veterans Outreach Coordinator.................    45
    Prepared statement...........................................    46
    Response to posthearing questions submitted by:
      Hon. Patty Murray..........................................    54
      Hon. Mark Begich...........................................    69

                                APPENDIX

National Coalition for Homeless Veterans; prepared statement.....    83

 
ENDING HOMELESSNESS AMONG VETERANS: VA'S PROGRESS ON ITS FIVE-YEAR PLAN

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., Room 
418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Brown of Ohio, Begich, Burr, 
Brown of Massachusetts and Boozman.

           STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning, everyone. Thank you all for 
joining us for this very important hearing today. You know, it 
goes without saying that no one who has sacrificed to serve our 
Nation in uniform should ever be without a roof over their 
head. Yet, homelessness is a harsh reality for tens of 
thousands of veterans.
    In 2009, Secretary Shinseki laid out the bold goal of 
ending homelessness among veterans in 5 years. As we reach the 
halfway point, today's hearing will examine the progress to 
date as well as the challenges and opportunities moving 
forward, particularly the challenges that homeless women 
veterans face.
    As many in this room know, the VA and the Department of 
Housing and Urban Development recently announced the number of 
homeless veterans dropped by 12 percent to a little more than 
67,000.
    VA and HUD deserve to be commended for the significant 
progress they have made; but despite this progress, challenges 
remain. VA must focus on a new and unfortunately growing 
segment of the homeless veteran population, female veterans.
    Like their male counterparts, women veterans face many of 
the same challenges that contribute to their risks of becoming 
homeless. They are serving on the front lines and being exposed 
to some of the same harshest realities of war. They are 
screening positive for PTSD, experiencing military sexual 
trauma, suffering from anxiety disorder, and having trouble 
finding a job that provides the stability to ease their 
transition back home.
    Yet, when our female veterans find themselves homeless, 
they have needs that are unique from those of male veterans. As 
the VA's Inspector General found in a report released on 
Monday, some of those unique needs are not being addressed.
    The Inspector General found there were serious safety and 
security concerns for homeless women veterans, especially those 
who have experienced military sexual trauma.
    They found bedrooms and bathrooms without sufficient locks, 
halls and stairways without sufficient lighting, and mixed-
gender living facilities without access restrictions. They also 
found the VA should do a better job at targeting places and 
populations that need help the most.
    In addition to this Inspector General report, GAO released 
a report at the end of last year that cited VA for the lack of 
gender-specific privacy, safety, and security standards.
    Following that report, I sent a letter to VA and HUD with 
Senators Tester and Snowe seeking answers to a number of 
questions it raised. I have heard from HUD. They are reviewing 
their data collection process in order to capture more 
information on homeless women veterans.
    I have also heard from VA. They are working to develop and 
provide training for staff and providers to better treat 
veterans who have experienced traumatic events and are 
modifying their guidance on privacy, safety, and security for 
providers who serve homeless women veterans.
    As more women begin to transition home and step back into 
lives as mothers and wives and citizens, we must be prepared to 
serve the unique challenges they face. As we continue to learn 
about the alarming number of homeless women veterans, we must 
be sure the VA is there to meet their needs.
    This means we cannot violate their trust by jeopardizing 
their privacy, safety, or security when we place them in 
housing facilities or when they receive care in VA facilities.
    I am hopeful that we can explore these issues together 
during today's hearing, and I am so pleased that courageous 
women like Sandra, who has just joined us, and Chanel, who you 
will hear from on the next panel, have come forward to help 
give us a first-hand account of the challenges that we need to 
meet.
    As the VA continues to make progress in bringing down the 
number of homeless veterans, challenges remain. We are still 
facing unacceptable numbers of chronically homeless veterans. 
This group often has complex combinations of issues including 
addictions or mental and physical health issues.
    All have been failed by a system that let them slip through 
the cracks, and many of the traditional methods used for 
treating and caring for homeless veterans may not work for this 
population. That is why it is critical that we continue to look 
for productive ways to engage these veterans and get them off 
the streets. A strong partnership with VA's mental health 
programs will be crucial for this effort.
    One of the best ways to end homelessness is to prevent it 
from occurring. This will take a concerted effort from VA's 
homeless programs, but it will also take collaboration from all 
of VA's programs.
    In today's economy, these programs provide critical 
assistance that helps veterans and their families remain in 
their homes. It is also important we continue to focus on 
getting earned benefits and services to veterans quickly and 
without delay.
    For homeless veterans and those at risk, these benefits can 
make the difference in avoiding homelessness or becoming 
trapped in a cycle that keeps them on the streets. We have been 
making progress at ending veteran homelessness through 
investments in proven solutions like rapid re-housing and 
permanent housing programs, but we must ensure that we do not 
lose sight of the need to provide each homeless investment with 
the resource that most closely matches their needs.
    We also have to ensure that VA's programs to help homeless 
veterans are running as efficiently as possible. I had my staff 
do and exhaustive review of thousands of pages worth of VA's 
inspections of its Grant and Per Diem providers. My staff found 
there were opportunities to improve the program by providing 
more guidance to providers and to VA staff who work with them.
    Today's hearing gives us another opportunity to better 
understand the current situation with the goal of fixing what 
is not working and expanding what is.
    With that, Senator Brown is here today replacing Senator 
Burr, not replacing obviously, being here in his stead.
    Senator Brown of Massachusetts. Not yet.
    Chairman Murray. I will turn it over to Senator Brown.

                STATEMENT OF HON. SCOTT BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Madam Chair, and 
thanks for calling this important hearing.
    First of all, I would like to welcome all of our witnesses 
as well today. Particularly, I would like to welcome Ms. 
Strickland and Ms. Curry and thank you for your willingness to 
share your stories and experiences with us.
    As Members of this Committee, it is important that we hear 
first-hand from our veterans and how they have been affected by 
a lot of the policies and problems within the VA, especially on 
this very important issue.
    On behalf of Ranking Member Burr, I would like to extend a 
warm welcome to Reverend Scott Rogers from Asheville, North 
Carolina, who is representing the National Coalition for 
Homeless Veterans. So, thank you for your involvement and 
service.
    I would also like to welcome and recognize Maura Squire, 
who serves in our Boston regional office as their homeless 
veterans outreach coordinator. I am looking forward to hearing 
that testimony, and thank you for being here as well.
    A lot of you obviously for many years have dedicated 
service to our U.S. Navy, and there are a few issues here that 
we care more about really than this issue of homelessness and 
ending it amongst our men and women that have been serving and 
given so much to our country.
    According to the VA, almost 65,000 veterans are homeless on 
any given night last year. I know in Massachusetts we are 
trying to do it better and work on it zealously, and I know 
Congress since 2010 has provided over a $400 million increase 
to services for homeless veterans. That is a good thing.
    With this significant funding increase, the VA has 
developed a wide variety of services to assist homeless 
veterans in securing and maintaining permanent housing and 
gainful employment.
    In light of the recent reports by the VA's Inspector 
General and GAO, I am concerned about the effectiveness of 
these programs. I know Senator Burr has referenced that a lot. 
It is great to have additional funds but we need to make sure 
we use them wisely. I know there are a lot of nonprofit groups 
out there trying to do their very, very best as well to help in 
the housing shortage for veterans.
    First, the GAO found in that report without more complete 
data, ``the VA does not have the information needed to plan 
services effectively, allocate grants to providers, and track 
progress toward its overall goal of ending veteran homelessness 
by 2015.''
    The second finding is a lack of VA oversight to ensure the 
safety and security of women veterans in community programs. 
The Inspector General found that within the last 10 years 22 
homeless female veterans were placed in a Grant and Per Diem 
facility that was approved for only male veterans. This is 
unacceptable. This alone should cause serious concerns.
    What is even more concerning is that it appears VA staff 
had little regard for these womens' safety and security. I find 
that disturbing to say the least.
    Last, the Inspector General found that the Grant and Per 
Diem program spent $60,000 to provide housing for veterans who 
were not homeless. At one Grant and Per Diem facility almost 
one fourth of veterans were not homeless prior to entering the 
program. Once again, that goes to the point of having proper 
oversight.
    While clear progress has been made, it is evident from 
these reports that pointing simply to the 12-percent decrease 
in the number of homeless veterans on any given night in 
January does not provide the complete picture.
    So, I think we need to ask a lot of serious questions--I am 
looking forward to doing just that--on the effectiveness of the 
VA veterans programs. For instance, how can VA end homelessness 
without having accurate data? Does the VA understand the 
reasons a veteran withdraws from a residential treatment 
program? Do they also know the veteran's living situation after 
completing the program? The follow-through is very important.
    In the current economic climate, it is Congress's 
responsibility to ensure taxpayer money is being used 
effectively and efficiently. So, I hope today we will have that 
opportunity to get some of those very real answers to these 
very difficult questions.
    So, thank you, Madam Chair. I look forward to the witnesses 
testimony and moving forward with this issue.
    Chairman Murray. Thank you very much.
    Senator Brown, we will turn to you for an opening 
statement.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown of Ohio. Thank you, Madam Chair. I appreciate 
the opportunity to be here. Thanks for your leadership, your 
dedication for ending veterans homelessness.
    It is just unbelievable that it is still the persistent 
problem it is, and I appreciate the work that the VA has done 
especially Chillicothe and southern Ohio. It is one of the best 
veterans' outreach programs for the homeless of any place in 
the country.
    According to a recent GAO report, the number of homeless 
women veterans has more than doubled from 2006 to 2010. VA is 
not keeping up, but I understand it is not just the VA. It is 
an all-hands approach from State and local governments to 
nonprofits and public-service groups, and it is not just 
homeless programs like food and shelter.
    The Homeless Veterans' Reintegration Program is a 
Department of Labor-funded program designed to provide the 
support and assistance needed for veterans to obtain employment 
and economic stability.
    It is getting access to the programs that include medical 
treatment and counseling and education and, where appropriate, 
legal assistance. But ultimately the Veterans Administration 
must be the leader and the coordinator of these efforts.
    As we continue to look to solutions, I would like our 
witnesses to think about how we can coordinate these programs 
so that they are not overlapping or are not missing the gaps. 
So, we are reaching every veteran and every veteran's family 
and every community in which they live.
    Today's the second panel will have a proud Ohioan 
testifying whom I just met. I am glad she has come forward to 
tell her story. So, what happened to her will not have to be 
repeated.
    Chanel Curry is an Army reservist from Cleveland, Ohio. Her 
story is similar to that of far too many servicemembers. They 
served bravely in uniform. She is a 2006 graduate of Cleveland 
Heights High.
    In her early 20, she was mobilized in 2009 for 2 years and 
was sent to Iraq and Kuwait. After returning Stateside, she 
found a job in Atlanta. Yet, here is where her story is 
unfortunately shared by far too many other servicemembers.
    While employed in Atlanta, she still needed to travel to 
Cleveland due to her military commitment. Because of time 
missed serving her country, serving her community, she was 
eventually let go by her employer in a State hundreds of miles 
away.
    From March to December, March 2011 to December 2011, she 
was homeless. She found a homeless call center information that 
year, December 2011, was connected with a Grant and Per Diem 
provider. There she got the help that she should have received 
much, much earlier.
    She has gone through the initial stages of HUD-VASH. An 
inspection of our chosen unit will occur this week. She left 
the Grant and Per Diem program and is now staying with her 
sister until the voucher process is complete. I understand that 
could be as early as this week. She is also interviewing with 
four employers for a full-time job.
    I hope this will be a success story, unfortunate beginning 
but a success story. By any measure, she deserves what she 
earned while serving our country in uniform. Her testimony 
today, like her service to her country overseas, shows a moral 
courage and a commitment to our country that so many veterans 
have exhibited. She served then, and she is serving now.
    I thank you and thank Chanel for being here and thank you 
also to Sandra Strickland for her work.
    Thank you.
    Chairman Murray. Thank you very much.
    At this time now, I would like to welcome and thank all of 
our witnesses for being here today.
    First, we are very pleased, as I mentioned, to have Sandra 
Strickland. She is a veteran of the U.S. Army who will speak to 
us today about her experience as a homeless veteran. Ms. 
Strickland, thank you for your service to our country and for 
your willingness to come here today and your courage to share 
your story with all of us.
    After that, we will hear from Reverend Scott Rogers. He is 
the Executive Director of Asheville Buncombe Community 
Christian Ministry and accompanying Reverend Rogers is John 
Driscoll, President and Chief Executive Officer of the National 
Coalition for Homeless Veterans.
    Following Reverend Rogers, we will hear from Marsha Four. 
She is the Executive Director of the Philadelphia Veterans 
Multiservice and Education Center, testifying on behalf of the 
Vietnam Veterans of America.
    And then finally, we will hear from Linda Halliday. She is 
the Deputy Assistant Inspector General for Audits and 
Evaluations in the VA's Office of Inspector General. 
Accompanying her today is a fellow Washingtonian--good to have 
you here, Gary Abe, the Director of the Inspector General's 
Seattle Audit Division.
    So, Ms. Strickland, we will begin with you. Again thank you 
so much for coming and sharing your story.

       STATEMENT OF SANDRA STRICKLAND, U.S. ARMY VETERAN

    Ms. Strickland. You are welcome, of course. I am an Army 
veteran. I served in the Army for six and a half years. I 
joined the military in 1986. I served in Germany and also Fort 
Hood, Texas.
    I was not able to go to Desert Storm, but I did transition 
out and moved to Virginia to open up my own business, did a 
great job. Unfortunately, my husband and I just had issues. In 
December 2010, I was involved in a domestic violence situation 
and so I left the home with my two children, ages seven and 
five at the time.
    I then stayed at a domestic violence shelter. So, I am 
familiar with how a shelter is, how it is to be homeless. I 
would have never thought that I could have been homeless.
    Like I said, I was a business owner, did not graduate 
college, did not go to college, but I had 20-plus years in the 
administration field. So, just a wealth of experience.
    Like I said, I would have never thought that I would have 
been a homeless person. Normally, when you think of a homeless 
person, you think of a person that is on the street. You never 
think about a person that, you know, has a life; that, you 
know, is a mother.
    So, I think it is a silent epidemic that people do not view 
female veterans as becoming homeless. But we are.
    From the shelter, I was able to start working at a 
temporary agency. It was not full-time but, you know, it was 
enough to get me started. I then was able to get a full-time 
position at the assignment I was working on. I was able to get 
an apartment for me and my children.
    But then, I went into work on a Monday. They told us on a 
Friday, I mean, on a Monday that our last day was going to be 
that Friday.
    So here it is I am looking at unemployment. I was 
unemployed for about 6 months. I did get unemployment 
compensation but it did end. Resources started running out, 
going through custody issues with my children. I was not able 
to maintain physical custody of them because of my situation.
    So, it was just a long struggle. So, with that, I am facing 
homelessness. I called out to the VA center. They were not able 
to help me. So, I got in contact with an organization called 
Final Salute and they assist female veterans in obtaining safe 
and suitable housing. That is where I am right now.
    My road to homelessness, I feel that there are not enough 
funds being sent to the private organizations. I mean, we have 
the big organizations. The one that I was in, the domestic 
violence shelter, the funds were not even used to help the 
victims.
    You know, when you are homeless, you feel dehumanized 
because it is like you have lost everything. People tend to 
treat you differently. I just think that at least there could 
be more support for us. Our voices need to be heard.
    As far as when I reached out to the Veterans 
Administration, I am thinking because I am a veteran I would be 
able to get assistance. At the time there were no funds 
available. They referred me or said they could give me a list 
of shelters to go to.
    I did not have a full-time job. So, I am like where are the 
resources? You know, there is no one to direct us.
    It is just a plight that I do not think a lot of people or 
society has a clue as to what homelessness is. Then when you 
are homeless, you tend to not want to reach out because people 
tend to treat you differently. They tend to treat you like you 
are an outcast.
    I did reach out to an organization to get help with my 
rental assistance. They were able to help me. But, you know, 
the funds were dried up and so then, like I said, I am facing 
eviction. I have two children that I need to worry about.
    I just feel that there needs to be a voice put on 
homelessness as far as female homelessness and females with 
children because if I were facing the situation that I had to 
go to a shelter per se, I would have just basically just stayed 
in my car because the shelter that I went to previously, like I 
said, it was very cold during that time. It was December 2010. 
The blankets that they gave us was very, very thin. We were 
able to work in the pantry so I saw that they had donated a lot 
of comforters, new comforters at that.
    So, that particular night I asked the resident manager, you 
know, could I get some blankets for my children. I did not 
really care about myself but my children were freezing. She 
said that, you know, we cannot, you just have to take these and 
she gave me blankies, little baby blankies.
    I asked her, I said, well, there are comforters in the 
pantry. Why can I not have some of those? She said like, well, 
those are for someone else, and I am like who are they for? I 
am in a shelter, you know. I know shelters get donated items. 
So, why are we sleeping under blankets that are very paper 
thin.
    The organization that I am in now, I do not really look at 
it as a shelter. It is a transitional home. I look at it as a 
home. I do not know what I would have done had that 
organization not been there for me.
    I met with the owner, Jasmine Booth. She made me aware it 
is a 2-year program. I let her know my situation. You know, I 
am still looking for full-time employment. As I speak now, I am 
still working as a temp through a temp agency. But that was my 
saving grace.
    The program that is there I believe that when shelters do 
extend their hands to help a homeless person, that they should 
have resources in place to not enable them to stay homeless but 
to provide resources that will get them on their feet to be 
able to become selfsufficient.
    The support, I do not know, I just cannot stress or talk 
about the support for homeless people, homeless veterans at 
that. A comment was made a woman veteran is different than a 
woman because we have unique needs, and I just think that that 
needs to be addressed.
    [The prepared statement of Ms. Strickland follows:]
         Prepared Statement of Sandra Strickland, Army Veteran
    Thank you for the opportunity to share my journey to homelessness. 
I hope that through my shared experience, it will enlighten society's 
perspective of what homelessness ``looks'' like, give a voice to this 
silent epidemic that plagues our society, and spark an urgency to end 
homelessness by developing a process to empower a homeless person with 
the resources and assistance that they need, instead of providing 
quick-fix remedies that only enable their homelessness.
    My name is Sandra Strickland. I was born in Gulfport, MS, and I am 
a homeless 43 year-old African-American female, Army Veteran. I 
currently reside in Fairfax, Virginia, in a transitional home operated 
by Final Salute, Inc., a non-profit organization whose mission is to 
provide homeless female Veterans with safe and suitable housing. I am a 
mother of 4 wonderful children ages 22, 21, 8, and 6, and I am 
currently separated from my spouse, who is also an Army Veteran.
    I joined the Army after graduating high school in June 1986, and 
was sent to Ft. Jackson, SC, to complete Basic Training, as well as 
Advanced Individualized Training (AIT) for the Administrative Assistant 
(71L). Upon completion of AIT, I went to my first duty station in 
Kitzingen, Germany and served as my company's Personnel Administration 
Center (PAC), and later as the Executive Secretary for the Battalion 
Commander, who personally requested that I be assigned to this 
position. After leaving Germany, I was stationed at Ft. Hood, TX, where 
I was assigned to the Transportation Motor Pool and assisted in the 
deployment of soldiers going to and returning from Operation Desert 
Storm.
    In January 1990 I processed out of the Army and received an 
Honorable Discharge. With the skills and training that I acquired from 
the Army, I set out to live the American dream and become a business 
owner. Life happened along the way and in November 2002 I met and 
married my husband. We talked about opening up an auto repair shop 
together, but about 4 months after we were married, he was called back 
to active duty to assist in training the soldiers who were being sent 
to Iraq and Afghanistan, and was stationed at Ft. Bragg, NC, while I 
stayed at hour home in Stafford, VA. In 2006, my spouse was released 
from active duty and when he returned home, we opened up our auto 
repair shop in January 2007. Our marriage suffered because of the 
separation, among other things, and we continued to grow apart and 
eventually talked about divorce.
    Two days before Christmas of 2010, when my spouse picked up our 
children from school and preparatory academy, he made a verbal threat 
to the Academy Director that he was going to kill me and the kids. That 
was the day that I took my kids and left, and ended up living in a 
domestic violence shelter with my two younger children in tow (ages 6 
and 4 at the time). At the time I was working as a temp on a Government 
contract so I managed to save enough money to move me and my children 
into a 1 bedroom w/den apartment in February 2011. Everything was going 
great until I walked into work on Monday, April 25, 2011, and was told 
that the contract that I was working on was ending and Friday, 
April 29, 2011, would be my last day.
    I became unemployed on April 29, 2011, and despite being a Veteran, 
going on countless interviews and submitting countless resumes, and 
having a wealth of administrative experience, I remained unemployed 
until September 2011. Although I received unemployment compensation for 
a brief time, my finances became depleted and the eviction notices 
started coming. Also during this time I was dealing with custody issues 
for my children. Although the court awarded joint custody to me and my 
spouse, I was awarded temporary physical custody until such time as we 
went to court for the final custody hearing. That hearing took place 
and although we both maintained joint custody, the judge reversed the 
order and awarded physical custody to my spouse because he still had 
the marital home that our children grew up in which was in their best 
interest to stay there, and because my apartment was out of their 
current school district, it wouldn't be in their best interest to 
transition them to a new school for the upcoming school term. Not only 
was I in shock by the decision, I felt as though I was being victimized 
because I chose take my children and leave and unhealthy environment, 
regardless of the fact that we were homeless. Not only did I lose 
physical custody of my children, I eventually ended up losing my 
apartment because I couldn't afford to pay the rent, due to the lack of 
funds from being unemployed and not having a full-time job. So now, I 
am homeless and have been reduced to an ``every other weekend'' mother 
because my children no longer live with me every day.
    Although I don't have a college degree, I have over 20+ years of 
experience in the administration field, obtained from my many years of 
on the job training in the non-profit, government and association 
sectors, entertainment and media industry, working in positions as a 
CEO, CFO, Executive Secretary, Office Manager, Business Owner, 
Administrative Assistant, Grants Administrative Lead, Receptionist, 
Overnight stocker, just to name a few. That, coupled with being a 
military Veteran, has yet to open up any doors for a full-time job or 
have an employer offer me a full-time job because I am a Veteran.
    When I received my first eviction notice, I reached out to the 
Department of Veterans Affairs for financial assistance and assistance 
with obtaining full-time employment. When I spoke to one of their 
representatives on the telephone, their concern wasn't about my 
possible homelessness or unemployment, the representative was more 
concerned with my mental capacity--did I feel that I was mentally 
stable with everything that I had going on. She suggested that I come 
to the VA Office in DC to get registered into their system and be 
evaluated. Furthermore, I was told that they did not have any more 
vouchers for housing and the best that they could do was provide me 
with a list of shelters for me and my children to go to if we did 
become homeless. As for assisting me with employment, I was told to go 
to the unemployment office and file a claim for unemployment. I hung up 
the telephone feeling hopeless. The one organization that I thought I 
would at least get some temporary assistance from was only worried 
about my mental capacity and didn't go above and beyond to address my 
current needs.
    I was able to get rental assistance from a local organization in 
Stafford, VA and Final Salute, Inc., as well as receive public 
assistance. However, that was just a band-aid because I knew that if I 
didn't get a job soon I would be faced with eviction again, and 
ultimately homelessness. I started working for a Temp Agency in 
September 2011, however because I owed so much in arrears for rent, 
there was no way that I could catch up with the salary that I was 
bringing in. The owner of Final Salute, Inc. called me a week before 
Thanksgiving 2011 to follow-up with me to see how things were going 
with me and I told her that I was in the eviction process again and 
would ultimately be facing homelessness. She made me aware of the 
transitional home that she had just opened that month and let me know 
that there was an opening there if I wanted to move in. I met with her 
a few days later for an interview and the day before Thanksgiving 2011 
I moved into the Final Salute, Inc. transitional home. I call it a 
transitional home because I've lived in a shelter and this home is 
nothing like a shelter--it is my HOME. It is a 2-year program that 
allows me the opportunity to get back on the path of self-sufficiency 
and independence, and at the conclusion of the program, I will be given 
assistance to obtain a home of my own. During the 2-year stay, I am 
required to adhere to an individualized goal plan, provided with 
resources and support to help me achieve my goals. One of my goals is 
to own and operate an auto repair shop that is female-owned and 
operated. I also have an Administration/Consulting business that I 
started in 2009 that I am working on getting up and operational. To 
assist me with those goals of entrepreneurship, Final Salute, Inc. 
sponsored me to attend the V-Wise Conference that just took place in 
Orlando, FL. I am very thankful for the Final Salute, Inc. program and 
honestly, it has been my saving grace. Unfortunately, there are not 
enough programs such as Final Salute, Inc. whose focus is on preventing 
homelessness among female veterans and not just providing a band-aid 
remedy.
    Federal grants and resources are being given to well-established 
organizations, and the newly formed and unknown organizations such as 
Final Salute, Inc. are overlooked, and to me that is a travesty. Money 
is being poured into these other organizations; however some of these 
organizations are not addressing the core issue of a person's reason 
for being homeless. Instead of helping, they are enabling them to 
remain a product of the homelessness cycle, and the funds are not being 
used to provide assistance and resources for the homeless person. I can 
speak first hand from an experience that I encountered while living in 
the domestic violence shelter. During that time it was winter and the 
blankets that they provided for the residents beds were very thin. On 
one particular day, I had to clean out the storage pantry and saw that 
they had an abundance of NEW comforter sets still in their original 
package. I was beside myself. Here we are freezing at night and there 
are NEW comforter sets just sitting in the pantry not being used! Mind 
you, there was a problem with the heating system so they could only set 
the thermostat to 70 degrees. You would think that with the funds they 
were receiving, they would have gotten the heating system fixed! That 
night, I asked the Night Resident Manager if I could get a heavier 
blanket for my children because the temperature had dropped to the low 
20's that night, and instead of going into the pantry to give me a 
couple of the comforter sets, she gave me three small child-sized 
``blankees.'' I asked her about the NEW comforter sets in the pantry 
and I was told that they were being used for something else? Really? 
What else could they be used for other than for the residents in the 
house was the inside question I asked myself.
    This is one of the reasons why women that are homeless would prefer 
to stay homeless because of the treatment received within the 
shelters--shelters that are meant to help, but end up doing more harm 
than good. Once someone is processed into the shelter, they are made to 
feel like a child and although I understand policy, procedures and 
rules, we shouldn't be treated like we are prisoners. We already feel 
dehumanized because we are homeless, and the added stress and 
dictatorship doesn't make it any better. As a woman with children, I 
would suffer that type of treatment just so that my children could have 
a roof over their heads, but if it were just me, the shelter would not 
be my preference to live and I would seek out other means to survive, 
as do most homeless women. While in the shelter, you are not asked what 
your goals are, what is it that you want to do. You are given resources 
to go to, with no real guidance. You are told what you have to do, and 
sometimes how you have to do it. No individualized care or concern for 
the homeless person.
    The Department of Veteran Affairs will not be able to end 
homelessness as a sole organization. It is going to require the 
affiliation with organizations such as Final Salute, Inc. coming 
together and creating partnerships, so as to provide the small, unknown 
organizations access to the funds and resources needed that will enable 
them to have viable and thriving programs that are addressing the CORE 
needs of the homeless and curing the epidemic. The needs of a homeless 
person have to be discovered first, and then devise an individualized 
plan that will address the needs and put them on a path to self-
sufficiency so that they aren't a repeat case, or a product of society.
    When I lived in the domestic violence shelter, I went to work 
everyday and it wasn't until a situation happened where I couldn't go 
in to work one day that I had to tell my supervisor what my situation 
was. She was taken aback and could not believe that I was homeless 
because I didn't fit society's ``picture'' of what homelessness 
``looks'' like. I am what homelessness looks like, but I am inspired 
every day because I am blessed to be in a program that uplifts, 
encourages and empowers. I am not an alcoholic, I am not strung out on 
drugs, I don't have mental health issues, nor do I have any health 
disabilities. I am a very healthy woman who is a mother, a business 
woman who dresses in business suits (name brand suits when I used to be 
able to afford to do so), who has over 20+ years of experience in the 
administration industry, who is a striving entrepreneur who started two 
businesses of her own, who is a military veteran. According to society, 
I am not supposed to be homeless, but I am--not by choice but by 
circumstances.

    Chairman Murray. Thank you very much. We really appreciate 
your testimony. Thank you for being here.
    Reverend Rogers.

    STATEMENT OF REVEREND SCOTT ROGERS, EXECUTIVE DIRECTOR, 
ASHEVILLE BUNCOMBE COMMUNITY CHRISTIAN MINISTRY; ACCOMPANIED BY 
JOHN DRISCOLL, PRESIDENT AND CHIEF EXECUTIVE OFFICER, NATIONAL 
                COALITION FOR HOMELESS VETERANS

    Mr. Rogers. Chairman Murray and Ranking Member Richard 
Burr, and thank you, Senator Brown, for those wonderful and 
kind words, distinguished Members of the Senate Committee on 
Veterans' Affairs, it is my honor to present this testimony on 
behalf of the Asheville Buncombe Community Christian Ministry, 
familiarly known around the Asheville as ABCCM, but also to be 
here on the half of the National Coalition of Homeless Veterans 
and John Driscoll, who is not only a strong leader for all of 
us providing services but one who I am happy to call my friend.
    All of us providing services to veterans are committed to 
the 5-year plan to end homelessness for all of our veterans. 
ABCCM serves both men and women veterans. We have about 200 
men. We have about a dozen women veterans in separate 
facilities.
    But last year in 2011 ABCCM ended homelessness for 302 
veterans through our jobs program with HVRP and the Veterans 
Workforce Investment Program with jobs averaging $14 an hour 
and at about the cost of $1,100 per placement as opposed to the 
national average of $2,600 per placement.
    We also placed 87 disabled veterans into permanent 
supportive housing. You see, we ended homelessness for 389 of 
the 437 veterans that we served last year. How do we do this?
    Well, it is laid out here with several principles, nine of 
them in my testimony. But first, I want to say that it is our 
support of 300 churches, congregations of all sizes, colors, 
all faith groups who come together to join the government's 
efforts, the Veterans Affairs efforts in ending homelessness. 
We engaged about 3,200 volunteers just in our veterans 
restoration quarters and our Steadfast House for women.
    These congregations and volunteers did not just receive 
these dollars from the VA and from the Department of Labor but 
they matched them. They are there with their food, their 
clothes, their financial support, particularly their volunteer 
time for training and mentoring so that we are doubling the 
impact of those resources to provide not only great 
professional staff and services but especially that boundless 
energy from our volunteers.
    Second, we really have strong support and participation 
from the veterans' service organizations like the American 
Legion, DAV, the Military Officers Association, Vietnam 
Veterans for Peace, and many others.
    Third, our formally homeless veterans have a culture of 
giving back. They do not want to leave anyone behind. You see 
it begins with our formerly homeless veterans who are at the 
front desk who are saying to other veterans, both men and 
women, welcome home.
    In fact, it was the desire of formerly homeless veterans to 
give back that the American Legion posts in our area, in 
Hendersonville and in Asheville and the surrounding western 
North Carolina, put together Legion Post 526 that now has about 
137 members.
    They were the first, as we understand it, to receive their 
national charter and operate out of a homeless facility, our 
veterans restoration quarters.
    Fourth, it is the Charles George VA medical center in 
Asheville, North Carolina, that provides the high quality 
medical home resources. It is our local continuum of care with 
about 40 agencies working together because, as you know, 
collaboration is the critical key, and I just thank all of our 
folks back in Asheville for their support.
    These principles can be summed up in a couple of words. One 
is respect. Respect for every veteran to be empowered to make 
their choices and to have a clear sense of self determination. 
These are laid out beautifully by the Grant and Per Diem 
program's leadership.
    Two is the flexibility to build on local innovation and 
partnerships that employ and house our veterans.
    Three is building on an incentive-based culture and not an 
entitlement culture, by rewarding those who take responsibility 
for themselves and others.
    Four is working on the rapid re-housing and prevention 
strategies that reduces the need for transitional housing. We 
put back into homes 276 persons last year which kept us from 
having to build another 300-bed shelter.
    We submitted supportive services for a veterans' families 
proposal in hope that we will be able to build on with that 
partnership our own homeless-prevention rehousing.
    We commend the 2013 budget priorities. We hope you might 
consider adding three other items. First is a cost-of-living 
adjustment for the Grant and Per Diem of about two to 3 
percent.
    Second is a capital challenge grant for Grant and Per Diems 
because we need the extra help to expand and improve our 
housing facilities and transportation, particularly for women. 
Right now we would like to match you dollar for dollar in order 
to expand and improve those facilities and services.
    Third is providing innovative funding for more education 
and training and innovative funding that would provide and 
utilize a partnership between the VA medical centers and local 
professionals in the treatment of PTSD.
    So, thanks again for your commitment to our veterans and to 
implementing the principles that will help us all end 
homelessness for our veterans.
    As a pastor, Madam Chairman, I will continue to pray for 
your wisdom and the courage of this Committee and our Congress 
to offer the best to our veterans.
    Thank you for giving us the tools to serve.
    [The prepared statement of Mr. Rogers follows:]
   Prepared Statement of Reverend Scott Rogers, Executive Director, 
            Asheville Buncombe Community Christian Ministry
    Chairman Patty Murray, Ranking Member Richard Burr, and 
Distinguished Members of the U.S. Senate Committee on Veterans' 
Affairs: It is my honor to present this testimony on behalf of the 
Asheville Buncombe Community Christian Ministry (hereafter ABCCM) and 
on behalf of the National Coalition for Homeless Veterans (NCHV) with 
my friend Mr. John Driscoll, NCHV President and CEO. I want to 
recognize the other guests in the room who are also concerned about 
ending homelessness among our veterans.
                              introduction
    ABCCM has had a U.S. Department of Veterans Affairs (VA) Grant and 
Per Diem (GPD) contract since 2003. We currently have four Grant and 
Per Diem programs which encompass 148 homeless men and 10 homeless 
women (mothers with children) for a total of 158 beds. This makes us 
the third-largest contractor of Grant and Per Diem services in the 
Nation. Our combined campus facilities of 12.5 acres, with 11 acres for 
men and 1.5 acres for women, makes us one of the largest facilities for 
serving homeless veterans in the Nation.
    Under ABCCM's umbrella, we offer employment and training services 
through a U.S. Department of Labor (DOL) Homeless Veterans 
Reintegration Program (HVRP) grant. Last year we placed 201 homeless 
veterans back into the workforce at an average cost of $1,100 per 
participant, compared to $2,600 per participant nationally. We were 
recently honored with being included in the HVRP Best Practices 
document for the DOL-Veterans' Employment and Training Service (VETS).
    We also administer the DOL Veterans Workforce Investment Program 
(VWIP), which, through education and training, placed 101 veterans into 
new careers in 2011. Most of these were veterans recently released from 
the military. We found this program to be the most effective in helping 
them retool, reclaim, and embrace a new career path to sustain their 
families. We regret that this program is only slated for one more year 
of funding, and hope the Senate will take a lead in restoring VWIP. The 
impact of putting 302 veterans back into the workforce at an average of 
$14.11/hour generated about $8.8 million in payroll in 2011.
    Both of these services are offered under the larger umbrella of 
ABCCM, which is supported by about 300 congregations of all sizes, 
nationalities, and faith groups. ABCCM is volunteer-driven with over 
4,600 volunteers who actively participated in 2011. We served over 
50,000 men, women, and children (unduplicated) in our community of 
about 250,000. This means we touched one in five persons in Buncombe 
County, North Carolina.
    Other services offered by ABCCM include:

    <bullet> ``Crisis Ministry'' services, which include emergency 
assistance of food, clothes, support to prevent eviction and utility 
cutoffs, heating assistance, and transportation.
    <bullet> A vibrant Jail Ministry.
    <bullet> One of the largest free clinics in North Carolina, 
offering medical, dental, and pharmacy care to about half of the 
uninsured in our county.
    <bullet> Two additional education and training programs supported 
by DOL's Pathways Out of Poverty and a Young Parents Demonstration 
Program called Circles.

    Three decades ago there was a strong emphasis on public/private 
partnerships, which gave the government new opportunities to combine 
its entitlement programs with private innovations. Two decades ago, we 
saw new strides made as the government sought to purchase services that 
were better provided by the community and community-based 
organizations. During the last decade, we have seen the government add 
the opportunity to partner with faith-based organizations.
    Thank you for opening the door with us to explore public/private, 
community- and faith-based partnerships. As a faith-based organization 
and one of the leading homeless veteran service providers in the 
country, ABCCM is demonstrating that this strategy has a major return 
on the Congressional investment. We commend Congress and the 
President's support of the VA Grant Per Diem program, which funds about 
14,500 beds and, according to NCHV, has stemmed the tide of 
homelessness for our veterans.
    Even during these difficult economic times, we have made 
significant strides in reducing the overall number of homeless 
veterans. Thanks to the VA Grant and Per Diem program and our 
collaborating partner--the Charles George VA Medical Center--Asheville, 
North Carolina--we have changed homelessness among our veterans by 
placing 82-91% in the workforce and 73-89% in permanent housing since 
2008.
                            keys to success
    Collaboration is a key to our success. We are extremely grateful to 
VA for offering additional support to its medical centers to provide 
access to primary and mental health care for Grant and Per Diem 
providers. The Charles George VAMC in Asheville is a critical partner 
in our success. They consistently rank among the top-10 health care 
providers. This is demonstrated by the level of commitment they extend 
to our homeless veterans to be their medical home. Their care of our 
wounded warriors is exemplary and makes it possible for us to accept 
some of our highest and most at-risk veterans. We have had men who have 
been discharged from state mental health institutions with hopeless 
prognoses come to us and receive quality care at the Charles George 
VAMC, then go on to thrive in our environment. The combination of 
putting them in a safe and supportive environment, where they live with 
other veterans who embrace them as companions, mentors, trainers, and 
caregivers, adds a value that enables us to consistently help these men 
and women achieve stability, sustainable incomes, and permanent 
housing.
    The Charles George VAMC in Asheville has adopted a ``Working Five 
Year Plan'' to end homelessness. They have adopted six pillars in the 
plan to prevent and end homelessness, which includes VA leadership 
involvement and support:

    (1) Outreach and education
    (2) Housing and supportive services
    (3) Treatment services
    (4) Prevention services
    (5) Income, employment, and access to benefits
    (6) Community partnerships

    We have outlined specific metrics to expand outreach, reduce 
barriers to services, and increase resources through our collaborative 
efforts to offer veterans comprehensive services along the continuum of 
care.
    Another key collaboration in our community is the Asheville 
Homeless Coalition and Continuum of Care. Our community is one of the 
early pioneers in developing and implementing the Ten Year Plan to End 
Homelessness. We have modified that plan in recent years to incorporate 
the Five Year Plan to End Homelessness among Veterans, as well as a 
plan to end chronic homelessness in our community in five years. This 
group of over 40 providers and advocacy groups has worked tirelessly to 
provide wrap-around services and strategic interventions, and can 
successfully report a steady decline in the total number of homeless 
over the last five years and significant reductions of 50% of the 
chronically homeless in our community.
    ABCCM's homeless veterans programs create an additional level of 
success and cost-effectiveness that set us apart from our peers. First 
and foremost is our utilization of volunteers from the faith community. 
We create opportunities for volunteers to serve at every level from 
working at the front desk to welcome our veterans home, to working on 
cook teams and as servers to help provide three meals a day for the 250 
men on our Veterans Restoration Quarters (VRQ) campus and the 45 women 
and children at Steadfast House. In addition, these volunteers offer 24 
different training programs at the VRQ and 16 different personal skill-
building training programs at Steadfast House.
    Personal skill-building programs that equip our men and women to 
begin to manage every aspect of their daily lives include: sobriety and 
recovery through AA and NA groups; financial stability through banking 
and money management training; personal hygiene; health care training 
and spiritual formation through esteem-building, with the discovery of 
meaning and direction of one's place in the community; and work 
preparedness and job readiness training. From a practical standpoint, 
we rely on volunteers who have both experienced and overcome these 
challenges in their own lives.
    We depend heavily on veteran service organizations such as The 
American Legion, The Military Officers Association, Disabled American 
Veterans, and Vietnam Veterans for Peace, to name a few. We have the 
first nationally chartered American Legion Post for homeless veterans 
(#526), which is now made up of 137 formerly homeless veterans located 
in our facilities and giving back to our community. Our volunteers 
create a culture of safety, encouragement, and respect that nourishes 
the body, mind, and soul.
    The second key characteristic is developing a culture of personal 
responsibility in an incentive-based system instead of an entitlement-
based system. We go out of our way to make sure that every veteran 
knows they are being ``welcomed home.'' Operation Welcome Home is a 
serious greeting. It is not unusual for a homeless veteran (man or 
woman) to respond to this outpouring of hospitality with skepticism and 
sarcastic remarks like: ``Sure, and when do I have to be out?'' Our 
response to them is always: ``You are home now.'' This culture of 
helping our veterans rediscover what a safe and secure place our 
community can be provides the ultimate level of respect. We build on 
this level of respect in order to help them rediscover healthy routines 
in their lives--routines of good personal hygiene and caring for one's 
body by seeking appropriate primary care. We help them stabilize 
emotional and mental health by working with the Charles George VAMC to 
provide for their pharmacy and therapeutic needs.
    A third key factor was aligning our success with the national 
trainings and best practices that are shared between providers and set 
by the GPD program. NCHV provides an invaluable function for service 
providers nationwide by bringing us together to share these best 
practices. I believe it was out of these conferences that VA 
homelessness staff were able to put together a set of characteristics 
to exemplify the best we can offer to our homeless veterans.
    These characteristics include a campus-like environment to allow 
for housing, training, and recreational opportunities. This environment 
would be within a couple of miles of a VAMC to promote easy access to 
primary care, along with mental health, substance abuse, and PTSD 
services. The GPD program would work closely with DOL HVRP programs for 
education, and employment training and placement. Permanent supportive 
housing units connected to the property, or community collaboration in 
place, would give veterans priority and an immediate place to go. 
Ideally, the location would be away from the community's known centers 
for illegal drug activities and more closely aligned with stable 
neighborhoods and the VAMCs.
    In ABCCM's case, we embraced these recommendations and were able to 
identify a location for our Veteran Restoration Quarters (VRQ) that met 
all these criteria. The VRQ is located within one mile of the Charles 
George VAMC. We have 10 acres and five buildings on the property, 
including a 6,000-square-foot education and training center. We also 
have HVRP and VWIP programs under the larger ABCCM umbrella, which 
offers concentrated education, job training, on-the-job training, 
apprenticeships, and job placement and follow-up for 18 months after 
placement.
    ABCCM's incentive model grew out of the great work done by the VA 
Grant and Per Diem leadership. I want to commend Roger Casey, Chelsea 
Watson, and their team for putting together an application process that 
is built on best-practice strategies in the country. I believe their 
application process with its core assumptions forms a great foundation 
for any GPD applicant to successfully grow their services for homeless 
veterans. I concur with NCHV in that the GPD program has faced the 
ultimate test by continuing to lower the number of homeless veterans 
during the worst economic crisis in our Nation's history. The GPD 
program needs to be sustained by Congress as one of the primary 
strategies in both the prevention and successful re-housing of our 
veterans.
    A fourth key factor is found in our incentive system. A veteran 
earns points to acquire quality personal living items, along with a 
system of four steps that help our veterans' progress. The first is 
called our Stabilization Phase, where a man or woman is able to develop 
healthy daily living routines, stabilize emotions, and take care of 
physical health needs. They are able to discover a new sense of meaning 
and direction in their lives with proactive steps and support from 
peers and case managers. We perform routine room inspections along with 
laundry services so that their environment is clean and sanitary. 
Because of the support of our many congregations, we are able to 
provide personal hygiene kits, clothing, and other basic necessities. 
We offer congregate meals provided by 90 different cook teams who offer 
nutritious, balanced cuisines, thanks to the dietary support and 
planning from the Charles George VAMC staff.
    Veterans are brought into this stabilization phase through ABCCM's 
outstanding outreach program. We have four Crisis Ministry centers that 
offer food, clothing, household items, and financial assistance, as 
well as two independent day shelter programs--one for men and one for 
women. ABCCM consistently has heard from our veterans that they trusted 
us because we did what we said; we cared for them before we knew they 
were veterans; and we offered an opportunity for personal growth and 
transformation through the integrity and success of other formerly 
homeless veterans and veteran volunteers in the community.
    The second level is our Foundation Level, where men and women begin 
to live out and build on the personal skills they need. For those with 
mental health or substance abuse issues, this means developing emotion 
management skills, communication skills, and sobriety recovery skills. 
For those with physical health needs, it means tending to primary and 
specialty care, keeping appointments, medication management, and 
adopting a healthier lifestyle. We know that 51% of our veterans are 
diabetic, 26% deal with hypertension, and 12% deal with COPD. Having a 
full-time nurse on staff to monitor recovery for both inpatient and 
outpatient services, along with health and wellness service plans, is a 
key to our veterans' health stability.
    Another foundational piece is honoring the faith perspective of 
each veteran by helping them engage in their own spiritual formation by 
participating with local congregations and faith groups of their 
choice. We offer holistic classes and experiences that help address 
esteem issues. We offer Bible studies to address spiritual issues in 
order to stabilize that deeper sense of hope, meaning, and purpose.
    We lay another foundational piece by completing an assessment of 
their fundamental vocational goals and skills through a detailed work 
history. We offer to enhance their existing skills and experiences 
through work preparedness or job readiness training. The church and 
veterans groups, who volunteer with us, give resources for the basic 
necessities so that we can provide more of the GPD resources on 
education, training, and case management. When faith groups provide 
resources like food, clothes, household items, hygiene items, cleaning 
supplies, laundry supplies, plus vehicles from bicycles to cars and 
trucks, we can prioritize our funds by helping these men and women with 
the developmental skills they need to grow. As our veterans take steps 
to success, demonstrating that they will be responsible with their 
daily routines and activities, then we know they are ready to carry out 
their greater responsibilities for education, training, and employment.
    During this phase of the program, we help our men and women 
embrace--and complete--old and new dreams through education and 
training, or by jumping back onto the career ladder. Putting these 
foundational pieces into place prepares them to move to the next level. 
At the Cornerstone Level, we start building on four cornerstones of 
their lives. The first cornerstone utilizes traditional education 
classes, including secondary education, and campus classes. The 
veterans begin to embrace their potential.
    Our veterans develop proficiencies by building on their personal 
skills and utilizing those skills to complete unfinished Bachelor's and 
Master's degree programs. Some re-enter the workforce through on-the-
job training or apprenticeship programs. Some acquire or restore 
certification and licensure in their vocation, resulting in new 
directions and careers. We are successful in helping these men and 
women choose a career path where training, certifications, and degrees 
result in high-paying jobs. For example, in the field of health care, 
North Carolina offers a 14-month RN program for those with a Bachelor's 
degree, who can walk into a $4,000/month job. We have internet 
technology (IT) jobs, where men and women can complete six months of 
certifications and go on to careers starting at $5,000-$7,000 per 
month. We have a 4-5 week truck driver's training program, which helps 
our men and women immediately start earning $40,000-$105,000 per year 
in the transportation industry.
    We offer green collar job training in the area of solar technology, 
building analyst, LEED building design, and biofuel technicians--all 
careers that offer opportunities at a living wage and higher. We 
partner with our local community college, whose culinary arts and 
hospitality management programs are consistently ranked among the best 
in the country. Each year we graduate top chefs who go on to highly 
successful and lucrative careers in world-class facilities like the 
Grove Park Inn and the Biltmore Estate making $15-20/hour. Having put 
two cornerstones of education and employment training in place, the 
veterans may also add/build on other cornerstones like a track record 
of sobriety and/or emotional stability. They may add the cornerstone of 
building a strong network of friends and co-workers, which prepares 
them for the next level.
    Our veterans then move to the Pillar Level, where they exercise 
full autonomy and self-determination by embracing their own place in 
the community through income stability and permanent housing. In 2011, 
76% were discharged into permanent housing and 90% of our men with 
disabilities were discharged into permanent supportive housing--
compared to a national target of 60%. At the Pillar Level, we encourage 
these men and women to build sustainable success by their reintegration 
into four ``families.''
    The first is their civic family. The civic family is made up of 
other veteran support groups including The American Legion and DAV, or 
support groups such as AA, NA, etc. Some also participate in civic 
organizations such as Rotary and Kiwanis. These civic families become 
an important pillar to building strong social networks in their lives. 
The second family is their work family. We help our veterans understand 
that they are a part of the corporate team, instead of just punching a 
clock. We bring their employer onboard to help further the professional 
and personal growth of our men and women through their tutelage or on-
the-job training. We have even seen situations where employers have 
been willing to turn over their business to a veteran when no other 
successor was in view. The third family is their family of faith. Our 
veteran men and women tell us that it is critical for them to engage 
with their own family of faith and with spiritually nurturing and 
developing persons. This becomes a part of their lifelong support 
system, which helps them grow their hope, as well as have a well-
balanced perspective on life and their place in the community. Last is 
reunification with their biological family. Only about one in four of 
our veterans are able reunite with their biological families due to the 
severe trauma of burned bridges. Many of these families have endured 
the worst, and all too often, these relationships prove to be beyond 
repair. On the other hand, in cases where reconciliation has been 
possible, the involvement of our veterans' biological families is 
frequently one of the most powerful components to predicting long-term 
sustainability in their lives. Encouraging our veterans to develop and 
establish new family ties is what we see most often that gives them 
that sense of completeness in their reintegration into the community.
    The fifth key factor to our success is utilizing volunteers and 
incorporating businesses as key partners. Involvement of the faith 
community means getting our message out to key community leaders within 
those faith groups. Volunteers from the faith community are often the 
same ones who are making hiring decisions, education decisions, and 
offering advancement opportunities through their networks in the 
community.
    Our faith community volunteers also open doors for training and 
employment in the community that would otherwise be closed. Our Chamber 
of Commerce and businesses in the community have already developed a 
``hire our veterans'' culture. We have 111 businesses that actively 
give priority and preference to hiring veterans. We have 60 private 
landlords who are willing to offer permanent housing to our veterans. 
Our Public Housing Authority has adopted a policy of working with our 
homeless veterans, giving them first priority for open units, and is 
fully cooperating with our HUD-VA Supportive Housing (HUD-VASH) 
program.
    Our faith community has also taken a lead with our Homelessness 
Prevention and Rapid Re-housing Programs (HPRP). ABCCM commits $60,000 
each year to homelessness prevention and rapid re-housing services, 
which hugely benefits our veterans. We have four crisis centers that 
provide access around the four corners of the county so that veterans 
and others can avoid homelessness. We have recently applied for funding 
through the VA Supportive Services for Veteran Families (SSVF) program 
and hope to add this to our list of program services.
    We concur with NCHV's goals in an article published by John 
Driscoll on Feb. 8, 2012, in which he highlights the need to gear up 
for ``The Critical Year.'' We are grateful to Congress and the 
President for the 2013 budget, which keeps America on track to end 
veteran homelessness by 2015. We hope you will continue to support the 
four key homeless veteran programs in the FY 2013 budget: GPD, SSVF, 
HUD-VASH, and HVRP.
    A sixth key factor is prudent investment in a highly committed and 
professional staff, of which about half are veterans. We have great 
administrative leadership in Mr. Michael Reich. We also developed a 
Ph.D.-led substance abuse and recovery team of professionals along with 
a PTSD team of professionals. Having these professional competencies on 
staff helped us engage mental health professionals, support groups, and 
volunteers from the faith community and broader community to meet these 
core therapeutic needs of our men and women.

    ABCCM offers these funding considerations:

    1. A regular cost of living increase in the 2-3% range for the 
Grant and Per Diem Program in order to maintain quality services.
    2. Consider continuing and expanding the DOL Veterans Workforce 
Investment Program (VWIP) in conjunction with SSVF. We support the 
planned expansions of SSVF, which will help serve a number of high-risk 
veterans and their families who are homeless with prevention and rapid 
re-housing services.
    3. Support VA medical centers in creating stronger mental health 
services to address PTSD solutions for our veterans through creative 
public/private partnerships, such as that exhibited by the GPD program. 
We need additional funding for a number of successful treatment 
modalities for PTSD. We have discovered that most mental health and 
substance abuse issues tend to be symptomatic of the core PTSD 
underlying issues. In addressing these issues through various 
therapeutic modalities, we see tremendous transformational changes that 
allow men and women veterans to successfully cope with day-to-day 
living. These therapeutic modalities cover the waterfront of treatment 
from art and music, to equestrian and pet therapies, to traditional 
therapeutic programs. ABCCM and other GPD providers would welcome the 
opportunity to add a public/private partnership with VA to provide 
these therapeutic services in conjunction with resolving these core 
issues.
    4. Reinstate the capital grant program for vans for the Grant and 
Per Diem program.
    5. Consider creating a capital grant program for GPD programs to 
offer capital expansion and improvements. ABCCM's Grant and Per Diem 
programs need a boost of $3 million to eliminate debt on the 
facilities. We would recommend that Congress consider a VA GPD Capital 
Challenge grant, incorporating matching funds, so that capital funds 
raised by the community would be matched one-to-one in order to help 
with efforts to both retire debt and/or improve/expand facilities.

    In summary, several key factors contribute to our success:

    1. Our strong collaboration with the Charles George VA Medical 
Center.
    2. Our embrace of the principles set forth by the VA Grant and Per 
Diem program.
    3. Our strong community collaboration around the Continuum of Care 
and the Ten Year Plan to End Homelessness, including the VA's Five Year 
Plan to End Homelessness among Veterans.
    4. Our strong partnership with veteran service organizations. Over 
200 members from various veteran service organizations volunteer and 
give back, the most important being the American Legion Post #526, 
which has 137 formerly homeless veterans giving back to our homeless 
veterans.
    5. Our faith community. The faith community encompasses the 4,600+ 
volunteers who come alongside veterans at each critical phase as they 
progress thorough our program. By being rooted in the community, they 
give our veterans a way to be engaged in a new faith journey and 
spiritual development--on campus, as well as giving a spiritual home 
with networks of support off-campus in their congregation, synagogue, 
or mosque. This is essential to the veteran's reintegration into 
community.
    6. Our incentive-based system, which counters the entitlement 
culture. While each of us are committed to honoring the brave sacrifice 
that our veterans have offered in sustaining the freedoms afforded in 
our country, we cannot let our charity and compassion become crippling 
instead of incentivizing and motivational. We encourage our veterans to 
recognize their accomplishments and let each step of their journey 
inspire them to continue along their path of restoration.
    7. We recognize our veterans on a monthly and annual basis. We 
celebrate their numerous accomplishments from simple certifications to 
taking on large community projects as community leaders.

    We need government support from wise leaders who allow these 
services to engage the strengths of communities, with the freedom of 
innovation and support that is tailored to the needs of veterans. This 
should be coupled with responsible oversight and funding, which both 
empowers and equips.
    We hope the Senate will continue to incentivize community- and 
faith-based organizations that can demonstrate they provide these 
services with outcomes that are more cost-effective and provide long-
term solutions with a greater return on the public's investment.
    We believe ABCCM is able to do this because of the value added not 
just by public/private partnerships and community-based partnerships, 
but also by faith-based partnerships. Bringing all aspects of the 
community to address mind, body, emotional, and spiritual components 
creates a comprehensive environment where our outcomes consistently 
outperform the national norms and our cost-effectiveness is multiplied 
by church and community support.
    Our model produces success because it grows out of the microcosm of 
the community in which it is situated. It produces success because the 
microcosm of our community reflects shared values as well as shared 
opportunities, which come through the volunteer leaders of our 
community. ABCCM believes it has reflected the best of its community. 
We trust that government will reflect its best by continuing to adopt 
these principles and translate them into funding support, as well as 
policy supports that continue to sustain our common goal of ending 
homelessness for all our veterans by 2015.

    I want to thank Senate Committee on Veterans' Affairs and the 
National Coalition for Homeless Veterans for the opportunity to submit 
our practices and recommendations. It is an honor to serve our veterans 
in partnership with each of you. ABCCM will always be at your service, 
and we look forward to every opportunity to serve with you.

    Chairman Murray. Thank you very much.
    Ms. Four.

   STATEMENT OF MARSHA FOUR, CHAIR, NATIONAL WOMEN VETERANS 
             COMMITTEE, VIETNAM VETERANS OF AMERICA

    Ms. Four. Good morning. Thank you, Senator Murray, Senators 
on the Committee, for allowing me to testify on behalf of 
Vietnam Veterans of America, and I would say that I also thank 
you for all of the great support you have given to HUD-VASH. It 
has been a tremendous opportunity for the veterans and has seen 
great advantage.
    I also would like to, Mr. Brown mentioned that the snapshot 
picture, I guess, of the number of homeless veterans that exist 
today on the point in time count is 67,000 plus.
    VVA does not feel that this is a true number also. But it 
is a snapshot, and I think what it does show is that there has 
been an impact made by the additional care, assistance, 
services, and programs that have been coordinated to work at 
helping to end homelessness. So, we feel that we are at least 
seeing that these programs are doing something.
    Although I have full testimony, which goes into great 
detail, I am going to try to be very concise and sum up a few 
mentions.
    The Housing First model, which is a great push right now. 
It is a monster push right now, and it is, in fact, a beautiful 
housing model for veterans that fit in it. And it is also one 
that is a great advantage to the women veterans because they 
can have their children with them. They do not have to disrupt 
the family situation. The kids can stay in school. They keep 
the unit intact.
    But it does not fit all veterans, not even all women 
veterans. There are many veterans that are quite vulnerable and 
that we cannot dismiss the opportunity or I should say the 
responsibility of not eliminating or disintegrating a housing-
ready model for some of these veterans because even when, you 
know, Secretary Shinseki first came out on eliminating 
homelessness, he said do not close all the doors.
    There are doors that should be left open because many 
veterans will have to find their way to the right one. By 
placing some of these veterans in the Housing First model, we 
are setting them up for failure and back to the streets.
    I would like to just make a couple of comments about the 
Grant and Per Diem program because, in fact, nonprofit 
agencies, without nonprofit agencies in the communities, the 
attack on homeless would, for veterans, would be a greater 
issue.
    The Grant and Per Diem program, while it has been a 
tremendous, you know, assistance in that realm for decades, 
there are a few situations that cause great concern or great 
impact and handicap the nonprofit agencies.
    One is the ability to request an increase in the per diem 
for the programs. In order to get the per diem increased, 
nonprofits submit their last year's audit to show that there 
was an override in the expenses and they need more money.
    But nonprofit agencies do not have the pleasure of hiring 
staff and augmenting program design up front in order to show 
there is a loss because now in the cases of some nonprofits, 
they have lost their lines of credit in banks. They have paid 
interest rates on those lines of credit that are not 
reimbursable.
    So, I have proposed in my testimony a piece that could be 
worked into the situation where we can, as we have with other 
Federal agencies, nonprofits request budgets that would be used 
in the coming year, draw down from that, and I describe that in 
my testimony.
    Another is the residential payments that we have to DDOT, 
nonprofits have to deduct the payments that veterans would make 
as a residential payments if they are in a nonprofit 
residential program.
    So that brings down again the cost to the program to the 
agency. If that could be eliminating, the nonprofit agencies, 
especially those that have more than one program, that have 
home offices and programs scattered around, it is very 
difficult to have a program if you cannot help to utilize these 
moneys as discretionary, to keep the entire agency afloat 
because if that agency is not solvent, it cannot operate the 
program.
    So, it is a handicap to those agencies that have many 
programs to have to deduct residential payments from the 
expense of the program.
    We believe that there is an issue with consolidation of VA 
Grant and Per Diem projects. There are some nonprofits who have 
had capital grants, that get per diem for those. They have 
expanded that program under per diem only grant and these two 
grants now has separate project numbers which have to be turned 
in and provided per diem payments based on percentages, and 
those nonprofits receive several different percentage payments 
based on the differences in the project numbers, and they still 
have the same garbage collected and the same staff, and eat the 
same food.
    Another is the Grant and Per Diem service centers. I will 
only say that they are, in fact, the gateway in from the 
streets to the Housing First model. I ask you to look at that 
testimony to see the significance of those programs.
    Some are seeing two up to over 1,000 veterans, unique 
veterans a year. They need some staffing grants because four 
dollars and change does not make it for the veteran who comes 
in for 1 hour and the staff has to work for 2 days to get them 
housing.
    We believe there is a great opportunity to expand the use 
of the homeless Grant and Per Diem service centers. That is 
outlined in my testimony. We believe the scope of their ability 
and authority needs to be extended so that veterans who are 
placed in Housing First can continue the case management they 
need to stay there so that they can come back to the service 
centers and continue that process.
    We are also looking at how we could best utilize those and 
morph program into something other than just homeless from the 
streets but also homeless prevention and retention in housing.
    Special-needs grants, appreciate the authority was extended 
to them. However, the VA grant per diem did not put out any 
grants for new programs.
    Chairman Murray. If we could get you to wrap up your 
testimony. We do have your written testimony. I want to make 
sure we get to all of our witnesses.
    Ms. Four. Yes, ma'am. I have addressed military sexual 
trauma programs, the supportive services grants, the DOL, if we 
could extend those opportunities for veterans, and of course, 
the GAO report that I mentioned in the testimony.
    I appreciate the opportunity to be here. I see that many of 
us will impact the VA in a broad scope even through the mental 
health departments, and I encourage the Committee to look at 
the opportunity for nonprofits to continue to assist in this 
realm.
    Thank you, ma'am.
    [The prepared statement of Ms. Four follows:]
Prepared Statement of Marsha Four, National Board of Directors, Chair, 
     National Women Veterans Committee, Vietnam Veterans of America
    Senator Murray, Members of the Committee, Good Morning. On behalf 
of Vietnam Veterans of American (VVA) I appreciate this opportunity to 
provide testimony on ``Ending Homelessness Among Veterans.''
    VVA recognizes the investment of energy and efforts being placed to 
address this issue. Many Veterans have received the advantage of the 
increased programs and services afforded to them under these 
initiatives. We are here today to present some ideas and approaches 
that could not only increase the positive outcomes of these advantages 
but also bring relief to the community service providers who have also 
dedicated themselves to this difficult situation of life, but also 
enhance services to those men and women who face it.
    Over the past two decades we have become increasingly more vested 
in the recognition and address of the situation of homelessness among 
Veterans. In looking back VVA well remembers the time when the VA 
acknowledged that as many as 275,000 Veterans filled these roles. With 
the legislative creation of the VA Homeless Grant and Per Diem (HGPD) 
program and its program growth, the VA and community Veteran service 
providers have been able to chip away at this deplorable situation of 
life that existed for so many who served this county in its Armed 
Forces. Startling is the fact that the percent of homeless women 
Veterans has risen from 2% to 6% of the homeless Veteran population and 
that over the past four years the actual number has doubled.
    Currently the VA sites that the number of homeless Veterans has 
been reduced to 67,495 as reported by the most recent Point in Time 
count. VVA recognizes this as a useful tool but doubts that this number 
is necessarily a solid number. It is a snap shot because it is 
impossible to have on record all the Veterans who are homeless. 
Nonetheless it is a true indicator that all the energy surrounding the 
above mentioned programs has made a difference. It is undeniable that 
the number of Homeless women veterans has been climbing; however, 
collection data on homeless women Veterans is not reliable as indicated 
in the latest Government Accounting Office's (GAO) report on this 
topic.
    Today many more initiatives have added strength to the work that is 
being accomplished in this arena. The HUD-VASH voucher subsidized 
program was revitalized and it has become another vital and realistic 
approach to independent housing for those Veterans who are able to make 
a true life change with the assistance of continued case management. 
The ``Housing First'' model is also working for many Veterans. These 
along with creative non-profit agency community partnerships and the 
smaller foundation grants that augment the entire process have truly 
made a significant impact on the number of homeless Veterans that are 
seen today.
                             housing first
    ``Housing First'' is a model that for homeless Veterans, many of 
whom are women, is perfect. It is one that has provided exceptional 
opportunities for our individual Veterans, Veterans and their families, 
and single Veterans with children. If we are to move forward with the 
current trend of the ``Housing First'' model then we all have to take 
responsible for the success of this venture and also view it with the 
eyes of reality. How can we best fulfill our obligation to those 
Veterans we place immediately in housing? Women Veterans with children 
often prefer this model because it affords them the ability to remain 
with their children, escaping from the disruption of the family 
setting. Over the past 2 years VA data shows that homeless female 
veterans with dependents prefer permanent housing options (HUD-VASH). 
In permanent housing they can pursue their recovery in the community 
with their children living with them. Children can engage in school 
systems and other social supports essential for increasing their 
stabilization and preventing future episodes of homelessness.
    With that said, VVA, the VA, you and, I, also as a community 
Veteran service provider, must work in a partnership to create the most 
advantageous environment for successful outcomes. This includes the 
responsibility of protecting from disintegration the ``Housing Ready'' 
models and those programs created for individual attention to the need 
of significant mental health residential transitional programs. This is 
true for both men and women. For some Veterans, if they need or require 
a significant mental health residential program, it is the only viable 
option they have on the road to their true independence in permanent 
housing placement.
    Allowing the disintegration of the ``Housing Ready'' models is a 
trap that must be avoided in order to truly address the needs of all 
Veterans * * * to do so would be requiring all homeless Veterans to 
meet our pre-determined unrealistic goals and ultimately deny them the 
opportunity to reach the attainable and successful goal of permanent 
housing. Secretary Shinseki has also stated that no door to the other 
side of homelessness should be eliminated. There continues to be a need 
for a variety of entry points to independent housing and a true 
individualized assessment of capabilities should be utilized in order 
to produce the most successful outcomes for our Veterans.
                     va homeless grant and per diem
VA Homeless Grant and Per Diem Payments
    The difficult side of requesting increased per diem rates with the 
VA Homeless Grant and Per Diem program lies in the process that 
currently exists whereby the decision to determine the rate of per diem 
is based on the agency's last FY audit.
    Non-profit agencies do not have the freedom or capability to incur 
expenses or increase necessary staff levels based on veteran needs for 
its HGPD program without the funding to do so. However, they cannot 
request the increased funding to enhance services unless they show the 
actual expense in their previous years audited budget. Hence they 
cannot apply for an increase in per diem because they cannot justify 
the increase in per diem needed. It seems to be a ``Catch 22.''
    If the request for per diem could be determined by the proposed 
fiscal year program budget rather than the past program expense, a non-
profit agency would be able to function at a more appropriate level in 
order to fully provide and deliver services and care that is most 
appropriate for the veterans. New initiatives and enhancements cannot 
be added because the expense of such cannot be taken on without first 
obtaining an increase in per diem to cover these expenses.
    One consideration could be a process utilized by other Federal 
agencies. On an annual basis the provider submits a proposed budget 
with narrative for its justification. The Federal agency reviews the 
budget and awards the approved dollars, providing a monthly 
disbursement through direct deposit to the agency based on an agency 
invoice. At the close of the fiscal year the agency provides the annual 
program expense for justification of the account. The parameters for 
the agency's annual budget request would be directly related to and not 
exceed the amount of the VA per diem cap as set by regulation.
Resident Payments in VA Homeless Grant and Per Diem
    Non-profits have long struggled with the process used to justify 
the receipt of the per diem payments for Homeless Grant and Per Diem 
(HGPD) programs. Although the amount of the money received per veteran 
per day provided as per diem has increased over time, the requirements 
to provide documentation to meet a 100% cost expense has created a 
significant burden on the non-profits.
    The expenses incurred by a non-profit agency often require 
discretionary dollars to pay for their cost of expenses that are 
necessary. Grants however, are restrictive and many of the expenses 
incurred by programs are not allowable by the grant regulations. 
Examples of this are those in the arena of administrative and 
operational dollars, and building and maintenance expenses. These could 
be expenses charged to the cost of the HGPD program if the per diem 
program was the only program of the agency. However, if you are an 
agency that operates the per diem program located physically offsite 
from the non-profit agency home office, you cannot apply these expenses 
to HGPD. VVA contends that without the up keep and solvency of the 
parent agency as a whole the per diem program could not function. It is 
totally reliant on the home office and collateral functions of it. The 
HGPD program could not exist without the home agency and therefore some 
of the expenses of the agency, unrelated specifically to the HGPD 
program, should be directly allowable as expenses to the program.
    Programs are not required to charge program residential fees from 
its residents. The agencies do so in great part to meet the financial 
burden of the agency that the program has created. These residential 
funds could be utilized as discretionary funds to assist the agency in 
the offset of agency expenses as highlighted above. Currently they must 
be deducted from the cost of the HGPD program. This activity directly 
reduces the cost of the program expense and hence the amount of per 
diem that the agency is eligible to receive under the current 
requirement for the requested per diem rate of reimbursement.
    The burden created by the legislative requirement to deduct these 
residential payments from the cost of the program expenses prior to 
submitting the cost of the program to the HGPD office on the annual 
audit exposes the agencies to shortfalls in program cost that result in 
the agencies inability to obtain maximum per diem payments.
Consolidation of VA Homeless Grant and Per Diem Projects
    In the past, some successful VA Homeless Grant and Per Diem (HGPD) 
residential programs (funded in a capital grant process through HGPD) 
identified an increased geographic need for additional bed space. The 
level of need was unknown at the time of the original grant. In order 
to meet this recognized need for increased capacity these existing HGPD 
programs requested a program expansion for additional beds under a 
separate VA HGPD funding category known as the ``Per Diem Only'' (PDO) 
grant process. When they were awarded a PDO grant they now had the 
ability to increase their overall program beds. Here's where it gets 
extremely difficult for the non-profits.
    Since the original grant and the PDO grant were awarded at 
different times they have separate ``project numbers.'' However, it is 
the same program, with the same expenses, the same staff, the same food 
costs, the same housekeeping costs, the same garbage costs, the same 
building rental costs, the same policies and procedures, and the same 
location. They are required to divide out by percentage the number of 
beds under each project number in all reporting processes to include 
billing and the request for increased per diem. This reporting process 
involves a daily tracking of each resident as to what bed they are in 
and in which unit they reside because it is necessary to change the 
project number tracking if there is a need to move the resident's bed 
assignment. It is an administrative nightmare.
    To simplify: Although it is one program with absolutely no 
differentiation in policy, procedure, or cost, all expenses must be 
divided by percentages relative to ``project numbers'' and every 
Veteran who changes rooms has to be tracked by project number in 
applying for every month's per diem reimbursement request. Hence, this 
division of all expenses is required when requesting the per diem rates 
for the program or seeking an increase in the rates.
    This is an inefficient and time consuming process for the 
administrative tracking and reporting side. All expenses for the 
program on the bookkeeping side of the agency have to be calculated by 
percentage. It can also be detrimental to the program. It is proven 
that this process results in two different per diem rates for the same 
program. We believe that if a single program has two different project 
numbers based solely on an approved expansion, the program should be 
treated as a whole and the two projects numbers should be merged. To do 
so would allow an agency to function in a more efficient manner, have 
access to an appropriate and true per diem structure, and reduce 
administrative costs.
    VVA is requesting that this be considered for inclusion in a 
legislative bill. If we are in fact taking an aggressive review of 
issues surrounding the efficiency and effectiveness not to mention 
equity of the per diem payments to the non-profits, VVA believes this 
is a long outstanding issue that needs to be resolved. It is not only a 
tremendous burden to the non-profit awardees but a timely cost to the 
efficiency of the HGPD program It is an issue for all existing programs 
that received a second grant for expansion of its existing original 
program.
VA Homeless Grant and Per Diem Service Center
    In the mid 1990's, an increasing number of grants to receive per 
diem from the VA Homeless Grant and Per Diem Program for ``Drop In'' 
Centers--Day Service Centers were awarded. This was a time when other 
Federal funds were more easily obtainable in order to augment VA per 
diem payments. HUD was one agency, in particular, that awarded 
``Supportive Services Only'' grants. In many cases, if not most, these 
HUD grants have been eliminated from local municipalities' Continuum of 
Care Consolidated Plan. This was due to HUD's pressure on these cities 
and municipalities to increase an emphasis on permanent housing in 
order for the city to remain competitive in their national HUD grant 
applications for McKinney-Vento homeless grant awards. However, these 
added HUD dollars were a valued source of funding for the service 
centers as they provided augmented program components and additional 
staffing.
    With the loss of this funding non-profits were challenged to 
adequately provide the appropriate services in the VA HGPD full service 
centers. Per Diem alone could not fully fund the need same level of 
assistance. It is especially difficult in light of the increased number 
of Veterans who now make use of these service centers.
    Per Diem dollars received by services centers are not capable of 
supporting the ``special needs'' of the Veterans seeking assistance. 
Currently day service centers are receiving a maximum of $4.86 per 
hour, per veteran, for the time the Veteran is actually on site at the 
service center. It could be as little as one hour. However, the work of 
assisting the homeless Veteran who utilizes these services goes on long 
after they have left the service center, a center that is providing a 
full array of services and case management. In some cases service 
centers are the first entry point to the VA for our homeless veterans. 
Keep in mind they are in many respects the gate keepers of the 
``Housing First'' and ``Housing Ready'' programs.
    These service centers are unique and indispensable in the VA 
process. In many cases they are the front line and first exposure to 
the VA system. They are the door from the streets and shelters to VA 
substance abuse outpatient and residential treatment programs, job 
placement, job training, VA benefits, VA medical and mental health care 
and treatment, and VA homeless domiciliary placement. Veteran specific 
service centers are vital because most city and municipality social 
service agencies and staff do not have the knowledge or capacity to 
provide appropriate supportive services that directly involve the 
treatment, care and entitlements of Veterans.
    VVA urges Congress to provide the VA with the legislative authority 
to provide ``staffing and operational funding instead of per diem for 
service centers through it HGPD program. A VA HGPD ``staffing and 
operational'' funding process would allow the service centers to 
provide these vital services with appropriate level of qualified 
personnel. It would be modeled after and similar to the Special Needs 
Grant process that already exists as a precedent. Per Diem alone does 
not allow for the level of qualified and professional staffing that 
comprehensive service centers require. These staffing grants, to 
include operational funding, would eliminate the current Per Diem 
reimbursement. Some are currently assisting upwards of 100 veterans a 
day, providing nearly 80,000 hours to over 1000 individual veterans 
seeking services annually. Without consideration of staffing grants the 
result may well be the demise of these critical services centers.
    The VA acknowledges this problem exists. VVA believes further 
discussion is necessary in order to fully address this situation and 
remedy the problem facing these Service Centers.
Expanded Use of VA Homeless Grant and Per Diem Service Center
    As mentioned above, Service Centers are the retreat and salvation 
of Veterans who are still un-housed. This is there place of safety, 
where they find relief and are not afraid. The ``Housing First'' model 
and other independent housing placement initiatives have left many 
Veterans at loose ends * * * disconnected from the relationships they 
had with the staff that assisted in their new apartment placements. 
Some of these Veterans need continued self-assurance and resource 
development if they are to recognize their ability to ``make it'' on 
their own. Service Center staff do not have this defined 
responsibility, nor are the Veterans eligible for service center 
assistance if they have been housed. Additionally, there is not funding 
reimbursement for the assistance provided. As addressed above, Service 
Center agencies find it impossible to hire enough case managers for 
their designed program let alone to have the funding to hire case 
managers for this purpose.
    Many newly housed Veterans haven't been in this situation of 
``responsibility for a very long time. They are vulnerable and have a 
complex array of needs that require attention. It is great to place 
them in housing as soon as possible but then what? For those used to 
communal living and/or the service center environment they find 
themselves lonely * * * at risk for recidivism or relapse. They feel as 
if their safety net has been pulled out from under them because they 
entered housing. This is not an incentive for some. VVA believes 
without this continued trusted relationship the Veterans will fall 
short of success in their ``new'' independence. To cut them off in one 
fell swoop from the place and people on whom they have come to rely as 
a life line can be a frightening and disastrous experience.
    VA HGPD could begin thinking about extending the service center's 
scope regarding who is eligible for services. VVA would like to have 
consideration given to legislation that would expand the service 
ability permitted under the VA HGPD Service Center authority. It will 
allow the VA and the VA HGPD program to bridge the terrain between the 
streets and home.
    A small investment may prove to be most effective. Extending access 
to the HGPD Service Centers to Veterans for up to one hundred eighty 
(180) days after they are placed in housing would be an investment in a 
solid transition process. It would provide an increased positive 
outcome, not only for the statistics and data charts but for the 
Veterans who need to ``find their way'' to independence. It seems like 
a logical extension to the existing continuum of care and housing first 
model. HGPD service centers would aid in keeping veterans housed if the 
programs were to become more flexible in regard to eligibility.
    VVA feels it would be realistic to have future conversations about 
the morph of HGPD Service Centers into more of a Veterans' community 
center for Veterans in transition whether currently homeless, at-risk 
for homelessness, or recently re-housed, needing stabilization services 
and supports. As a group they would provide tremendous support for each 
other.
Special Needs Grants
    This grant provides assistance with additional operational costs 
that would not otherwise be incurred but for the fact that the 
recipient is providing supportive housing beds and services for the 
Special Needs of the following homeless veteran populations: women, 
including women who have care of minor dependents; frail elderly; 
terminally Ill; or chronically mentally ill. The focus of this GRANT is 
to encourage applicants to continue to deliver services to the homeless 
Special Need veteran population, one that requires a greater investment 
than what the normal HGPD reimbursement can provide.
    Last year the renewal of the authority to continue the Special 
Needs Grant Program (SNP) was an important action that extended the 
ability of community providers to assist Veterans. These Veterans, who 
because of increased need, created a sometimes insurmountable challenge 
to the non-profit Veteran providers who found it quite difficult, if 
not impossible; to provide the level of care they required to meet 
their needs. The discouraging piece to this creative program is that VA 
HGPD, after receiving the extension of authority for SNP, did not offer 
any opportunities for new grants to increase the number of these 
programs eligible for this funding.
    The benefits obtained through this program can easily be identified 
for all the special needs cohorts. In regard to women Veterans 
specifically, the SNP assists with funding to increase the professional 
staffing that is vital for their transition into the community. The 
case management ratio for programs of this nature is lower than 
normally expected. It also provided funding to assist the women with 
children and expenses that were incurred by them or their families 
while the women Veterans were in a recovery mental health program.
    Originally, the grant allowed the VA to partner with the non-profit 
through the SNP and combine dedicated staffing and program components 
to the SNP provider that greatly enhanced the overall advancement and 
success of the women Veterans in their transitional program. It has 
been identified that women Veterans have a high incidence of sexual 
assault, childhood sexual assault and trauma, domestic violence, and 
military sexual trauma (MST). With these issues alone comes the burden 
of addressing the mental health/psychiatric diagnoses that interferes 
with even their ability to function. Many live in the dark places of 
shame and guilt that can at times be paralyzing. Self harm is also a 
reality for many of them. As an example, The Mary E. Walker House is a 
thirty bed women Veterans only transitional residence established in 
2005, under HGPD funding. To date 205 women have been admitted to the 
program. Mental Health statistics include: MST 44%; Sexual trauma 54%; 
Childhood Abuse 55%; Domestic Violence 53%; non combat PTSD 46%; 
Bipolar 31%; Depressive Disorder 57%; Self harm 19%; Personality 
Disorder 11%; Adjustment Disorder 6%; Schizophrenia 8%. The importance 
of the SNP cannot be minimized. VVA encourages VA HGPD to reconsider 
and again offer a new grant round for an increase in the availability 
of these program funds.
Military Sexual Trauma Residential Treatment Programs
    While the VA has invested resources and expanded opportunities for 
the identification and treatment of PTSD as a result of MST, there are 
limited residential treatment programs that are both exclusively MST in 
nature and gender specific. The difficulty that faces women Veterans 
who are homeless lies in the fact that these women have little if any 
financial resources to travel to the locations that would best address 
their MST treatment needs. If an agency had access to additional 
funding through the SNP grants, this opportunity could become a reality 
to many more of these Veterans.
Supportive Services for Veteran Families (SSVF)
    VVA recognizes the great advantage this new grant provides for 
supportive services which is also a unique approach by the VA for 
community providers. It picks up a gap in services for Veterans that 
would have been recognized upon the up-coming conclusion of the 
Homeless Prevention, Rapid Re-Housing program established by the 
American Recovery and Reinvestment Act. VVA is also encouraged that it 
has been seen as a very pro-active approach as demonstrated by the 
increase in funding that it is receiving. It plays an additional role 
in the VA's aggressive attention to the elimination of homelessness 
among Veterans. Only about six months into its first year of existence, 
it has already brought much advantage to Veterans in communities across 
the country.
    It is important to note that female Veterans with MST have 
significant trust issues and it is critically important that we develop 
more collaborative and enduring (aftercare) case management models to 
promote both greater engagement with the community and VA. More timely 
access to mental health services are needed to address issues of 
depression, PTSD and substance use.
    We need models where VA and community can co-case manage; reducing 
handoffs and the likelihood of disengagement for this vulnerable 
population. VA's new SSVF is a model that promotes coordination between 
VA and the community promoting rapid re-housing into permanent housing. 
With the anticipated military draw down over the next five years we 
need more services focused on prevention with community coordination 
that is focused on consistent case management services and housing 
stabilization.
Department of Labor: Homeless Veteran Reintegration Program
    This Department of Labor (DOL) program directly trains homeless 
Veterans in an effort to provide skills and abilities leading to 
employment in order to maintain an independent life-style. It has been 
valuable for thousands of Veterans across the country.
    VVA has recognized that while this program is of significant 
contribution, many Veterans who are being quickly placed in housing 
without adequate skills and/or income are left out of the eligibility 
criteria for the HVRP training programs because they are not considered 
homeless. VVA feels that these Veterans should not be excluded from 
this program because of an emphasis on the ``housing first'' model. VVA 
feels they are being penalized for doing the right thing. They too 
should be given the chance to improve their life in the move from 
homelessness into one of independence. That they should be eligible for 
HVRP training programs for up to one year of housing placement. VVA 
also believes that homeless prevention is currently an activity with 
great emphasis. VVA feels that if documentation can be given to prove a 
Veteran is in imminent danger of becoming homeless they should also be 
considered for eligibility in HVRP training programs.
    VVA also takes note of the Trauma-Informed Care Guide produced by 
the DOL Women's Bureau. It was developed to assist women Veterans with 
employment and transition to civilian * * * but also to assist service 
providers with a guide to better understanding the challenges and 
unique needs of women Veterans. VVA applauds DOL Women's Bureau for 
this effort. This guide may well reach providers and employers outside 
the normal outreach of VA and HUD, thereby expanding the total 
community effort.
                            gao report 2011
    In December 2011, the Government Accounting Office (GAO) put 
forward five recommendations in its Report: Homeless Women Veterans: 
Actions Needed to Ensure Safe and Appropriate Housing. This report 
gives us much to think about. Are women Veterans and their needs truly 
being met by the programs that exist for them today? The questions are, 
``What will be done to reach them, to know them, to meet their needs 
and provide them a safe environment in which to address them?''
    This report begins, ``As more women serve in the military, the 
number of women Veterans has grown substantially, doubling from 4 
percent of all Veterans in 1990 to 8 percent, or an estimated 1.8 
million, today. The number of women Veterans will continue to increase 
as servicemembers return from the conflicts in Iraq and Afghanistan. 
Some of these women Veterans, like their male counterparts, face 
challenges readjusting to civilian life and are at risk of becoming 
homeless. Such challenges may be particularly pronounced for those 
women Veterans who have disabling psychological conditions resulting 
from military sexual trauma and for those who are single mothers.'' And 
``While these programs (VA HGPD and HUD-VASH) have expanded in recent 
years to serve more Veterans, it remains unclear whether they are 
meeting the housing needs of all homeless women Veterans.''
    Existing VA data indicates that the number of homeless women 
Veterans it has been able to identify has more than doubled over the 
last four years from 1,380 in fiscal year 2006 to 3,328 in fiscal year 
2010. As the number of women in the military continues to grow and 
hence the number of women Veterans it stands to reason so too will the 
number of homeless Women Veterans. Will the VA be ready for the 
increasing number of homeless women Veterans? Does the VA have the 
current capacity and level of professional medical and mental health 
staff to meet the challenges of these women?

        GAO Finding 1: ``Data on the characteristics of homeless women 
        veterans are limited to those who have been in contact with VA. 
        Neither VA nor HUD captures data on the overall population of 
        homeless women veterans.''

    HUD collects data on homeless women and homeless Veterans, but it 
does not collect any detailed statistics on homeless women Veterans. 
Neither VA nor HUD collects data that can be used as a reliable source 
for a true picture of the extent of homeless women Veterans in this 
country. With the reporting required by non-profit agencies and local 
cities and municipalities who receive Federal funding streams for 
programmatic oversight, it would seem that data could be more 
forthcoming. But the question has to be asked, ``Why hasn't this been 
more coordinated?'' The GAO reports states that, ``According to 
knowledgeable VA and HUD officials we spoke with, collecting data 
specific to homeless women Veterans would incur minimal burden and 
cost.'' States, local cities and municipalities that receive HUD or VA 
funding within any of their departments or agencies should be required 
to include the collection and reporting of data for this cohort as well 
as those now identified. This reporting should also be extended to 
those receiving Department of Labor training dollars through its 
Homeless Veteran Reintegration Program (HVRP).

        GAO Finding 2: ``Homeless women Veterans face barriers to 
        accessing and using Veteran housing, such as lack of awareness 
        about these programs, lack of referrals for temporary housing 
        while awaiting placement in GPD and HUD-VASH housing, limited 
        housing for women with children, and concerns about personal 
        safety.''

    There are many barriers to the access of housing for women 
Veterans. A few include:

    <bullet> They are not aware of the opportunities available
    <bullet> They don't know how or where to obtain housing services.
    <bullet> They are not easily found/identified in the community. 
They often ``couch surf.''
    <bullet> They have children and avoid shelters because of the 
safety factor;
    <bullet> They avoid social service agencies for fear of losing 
their children to the system.
    <bullet> 24 percent of VA Medical Center homeless coordinators 
indicated they have no referral plans or processes in place for 
temporarily housing homeless women veterans while they await placement 
in HUD-VASH and GPD programs.
    <bullet> Nearly 2/3 of VA HGPD programs are not capable of housing 
women with children.
    <bullet> The program expense of housing women with children is a 
disincentive for providers.
    <bullet> Women Veterans do not feel safe in programs that are not 
gender specific.

    The responsibility of outreach will fall on the shoulders of many. 
It does not rest with the VA alone. In some cases the VA homeless 
Outreach Teams are understaffed, especially in large metropolitan 
areas. Efforts are fragmented. A coordinated plan needs to be developed 
at the local level by the leadership of the respective VA medical 
center within its homeless Veteran program. It must include input and 
involvement of the Women Veteran Program Manager, its women's health 
clinic, the VBA Woman Veteran Coordinator, the state Department of 
Veterans Affairs, and all local/community agencies and Veteran 
providers.
    It is difficult to place women Veterans in temporary/transitional 
housing if one doesn't know where they exist nor have a plan to do so. 
Even within the VA HGPD program, a local provider has a difficult time 
identifying other HGPD programs for over flow placement or for a 
geographic re-location. The VA HGPD program could organize a database 
of all existing programs that accept women Veterans, the eligibility, 
and if children are accepted. It could be up-dated by the local VA 
homeless program coordinator of VA HGPD liaisons.
    There is no denying the fact that placing homeless women Veterans 
with children is a huge challenge. It is more costly, requires more 
staff, and involves increased liability. The boon to this situation for 
women Veterans has been the ``Housing First'' model for those who are 
ready for this placement. The recent addition of the VA Supportive 
Services for Veteran Families grant program is making a significant 
impact in this model for women with children. This grant program is in 
its first year and providers are already recognizing great success. The 
need for program enhancements have been identified but that is natural 
with a new program. It is vital that the funding for this program 
continues if we are in fact to move forward with the elimination of 
homelessness. But it must also be recognized that with housing first, 
we must accept the fact that case management will be most imperative 
and it is our responsibility to make it happen. If we truly believe in 
this model we must commit to it. Otherwise the Veterans have been set 
up to fail once more.
    Another important address of housing for homeless women with 
children is the Special Needs Grant program. Certainly it doesn't 
resolve all the problems. Nothing does. It does, however, provide 
additional funds for assistance with children. Many of the women who 
are in need of a programmatic transitional program do not have children 
with them. In some cases, family has taken the children so the mother 
can focus on her recovery and mental health stability, in other cases; 
the women have lost custody of the children to someone else or through 
the courts. In other instances, they either don't have children or the 
children are not minors. It also assists with staffing that can foster 
parenting classes, anger management, relationship building, and family 
reunification. An expansion investment by the VA HGPD program with 
increased awards of the Special Needs Grants to other non-profit 
agencies would improve transitional housing services in preparing women 
Veterans for independent housing.
    VVA is encouraged that VA has begun to evaluate safety and security 
arrangements at GPD programs that serve women. VVA awaits the 
production of a policy on gender-specific safety and security standards 
for its GPD housing. VVA finds this as important in many ways as that 
of the VA environmental/fire and safety inspections of which VA HGPD 
programs must comply. VVA finds unacceptable the potential of putting 
women veterans, any Veterans, at risk for sexual harassment or assault 
in any location where they expect to be safe in receiving care and 
treatment. This extends to VA facilities, clinics, programs, and 
residential treatment units. It is important to have oversight and 
accountability in all realms.
                               conclusion
    In conclusion, the number of homeless women Veterans is rising 
dramatically. It is imperative to understand their needs, in order to 
best address them. The VA may well be challenged by not only the number 
of women Veterans entering its system, that of both VHA and VBA, but by 
those who are homeless and who may be significantly challenged.

    Vietnam Veterans of America would like to thank this Committee for 
its time and attention to the significant issue of addressing 
homelessness among Veterans. It has permitted a formal communication on 
their behalf and I will be glad to answer any question you may have.

    Chairman Murray. Thank you very much.
    Ms. Halliday.

STATEMENT OF LINDA HALLIDAY, DEPUTY ASSISTANT INSPECTOR GENERAL 
 FOR AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY GARY ABE, 
                DIRECTOR, SEATTLE AUDIT DIVISION

    Ms. Halliday. Chairman Murray and Members of the Committee, 
thank you for the opportunity to discuss the OIG's work related 
the VA's homeless veterans programs, specifically the results 
of our recent report, the Audit of Homeless Providers--the 
Grant and Per Diem Program.
    I am accompanied by Mr. Gary Abe, the Director of our 
Seattle Audit Division, who directed the national audit.
    The Grant and Per Diem program is the largest of several VA 
homeless programs providing services to homeless veterans. 
Responsibility for the management and operation of funded 
projects rests with the community providers while VA medical 
facilities provide the oversight over the delivery of the 
support services.
    We reviewed community agencies receiving Grant and Per Diem 
funds in fiscal year 2011 to determine if the services to 
homeless veterans are provided as described in their grant 
applications and to assess whether program funding was 
effectively aligned with VHA's program priorities.
    We identified opportunities and made recommendations to 
strengthen program oversight, the grant application evaluation 
process, and program controls. We determined VHA needed 
standards for program safety, security, health, and welfare; a 
more comprehensive grant application evaluation process; a 
mechanism to better assess and measure bed capacity against the 
funding priorities and the need for the services; procedures to 
accurately report program outcomes and monitor the reliability 
of program information.
    VHA also needed training for VHA medical facility staff on 
determining the homeless veterans program eligibility and 
improved oversight of the providers participating in the 
program.
    We found VHA lacked guidance on the level of supervision 
and security measures expected for various homeless veteran 
populations such as female veterans living in transitional 
housing.
    Almost one-third of the 26 providers reviewed, that we 
reviewed, did not adequately address safety, security, and 
privacy risks of these veterans.
    We identified security risks such as bedrooms and bathrooms 
without sufficient locks, halls and stairs without sufficient 
lighting, and female and male residents on the same floor 
without access restrictions.
    We also found that 27 percent of the program providers did 
not ensure the safe storage of homeless veterans prescribed 
medications to include controlled narcotics such as oxycodone 
and Vicodin. Providers were not required to address the 
management of medications as part of their grant application 
process.
    A review of dietary support services showed 12 percent of 
the program providers did not consistently offer adequate meals 
that were nutritionally balanced and appropriate for homeless 
veterans. Again, we saw the grant applicants were not required 
to describe how they would provide meals or how they would meet 
the special dietary needs of homeless veterans such as managing 
diabetes in their grant applications.
    VHA needs to strengthen its oversight of the Grant and Per 
Diem program, and specifically it needs to ensure program 
funding is aligned with program goals.
    Our audit found that 26 percent of the veterans discharge 
information was inaccurate. In more than half of the cases, VHA 
case managers inaccurately reported that veterans successfully 
completed the program.
    We have a significant concern that the quality of the 
program information has not improved over the last 5 years. 
Clearly more management attention is needed to address the 
quality of program information relied upon to make decisions.
    Another important step in helping veterans transition to 
independent living is VBA's effort to assist homeless veterans 
filing claims for medical disabilities and other benefits. We 
have issued nine inspection reports that found four of nine VA 
regional offices did not consistently provide outreach services 
to homeless veterans. We will continue to review this important 
responsibility during our future inspections.
    VA is taking actions to ensure the safety, security, 
health, and welfare of veterans participating in the GPD 
program. We expect their recent efforts will help to ensure the 
program delivers effective services to homeless veterans and 
that the funding is used as intended.
    Madam Chairman, thank you for the opportunity to discuss 
our work. We would be pleased to answer any questions you or 
the Committee has.
    [The prepared statement of Ms. Halliday follows:]
  Prepared Statement of Linda A. Halliday, Deputy Assistant Inspector 
 General for Audits and Evaluations, Office of Inspector General, U.S. 
                     Department of Veterans Affairs
    Madam Chairman and Members of the Committee, Thank you for the 
opportunity to discuss the Office of Inspector General's (OIG) work 
related to VA's homeless veterans programs, specifically the results of 
our report, Audit of the Homeless Providers Grant and Per Diem Program. 
I am accompanied by Mr. Gary Abe, Director of our Seattle Audit 
Operations Division, who directed the audit.
                               background
    In November 2009, VA Secretary Shinseki announced a goal to end 
homelessness among veterans by 2015. In 2011, VA and the Department of 
Housing and Urban Development jointly released a supplement to Housing 
and Urban Development's Annual Homeless Assessment Report, which 
estimated 67,500 veterans were homeless on a single night in 
January 2011. VA requested $224.2 million to address this problem and 
establish the capacity to serve approximately 20,000 veterans in 2012.
    According to VA, the Grant and Per Diem (GPD) Program, administered 
by the Veterans Health Administration, provided services and 
transitional housing for over 100,000 veterans since 1994. It is the 
largest of several VA homeless programs currently providing annual 
funding and services to homeless veterans. The GPD program offers 
support services in all 50 states, the District of Columbia, Puerto 
Rico, and Guam, through 515 operational projects providing 
approximately 12,000 transitional housing beds. Community agency 
providers receive VA funding in addition to revenues from other 
Federal, state, or local sources. These programs operate based on 
unique designs as stated in their grant application. Responsibility for 
the management and operation of projects rests with community providers 
while local VA medical facilities provide oversight of the support 
services provided.
    GPD program liaisons are VA employees appointed by local VA medical 
facility directors and are typically social workers. As part of their 
oversight responsibilities, GPD program liaisons have regular contact 
with veterans and community agency providers. Additionally, GPD program 
liaisons coordinate annual inspections of the providers' facilities and 
submit annual performance reviews to the GPD's national program office. 
GPD program liaisons screen homeless veterans, verify their eligibility 
for the GPD program, and determine which homeless programs are most 
suitable to meet the needs of individual veterans. GPD program liaisons 
also work with the staff of the community providers in developing 
treatment goals and plans for each veteran and assessing the veteran's 
progress in reaching those goals.
   audit of the homeless providers grant and per diem program results
    In our report, we reviewed community agencies receiving funds from 
the GPD program to determine if they were providing services to 
homeless veterans as outlined in their grant applications. We also 
reviewed GPD program funding to determine if it was effectively aligned 
with program priorities. Grants were selected to reflect a variety of 
locations and sizes. We statistically selected 26 GPD program grant 
providers under 8 VA medical facilities (Chicago, Illinois; Los 
Angeles, California; Long Beach, California; Portland, Oregon; New 
Orleans, Louisiana; Lyons, New Jersey; Atlanta, Georgia; and Sheridan, 
Wyoming).
    We found a lack of program safety, security, health and welfare 
standards; an incomplete grant application evaluation process; and an 
inconsistent monitoring program that impacted the program's 
effectiveness. Also, VHA lacked a mechanism to assess and measure bed 
capacity, procedures to monitor the reliability of reported 
information, and sufficient training on program eligibility.
Program Operations
            Safety and Security Issues
    VHA policy requires supervision and security arrangements for the 
protection of homeless veterans using GPD program housing. However, VHA 
does not provide guidance on the level of supervision and security 
measures expected for various homeless veteran populations, such as 
female veterans living in GPD program transitional housing.
    Thirty-one percent of the 26 providers reviewed did not adequately 
address the safety, security, and privacy risks of veterans, especially 
female veterans. GPD program medical facility staff allowed providers 
to house female veterans in male-only approved facilities and multi-
gender facilities for which security and privacy risks had not been 
assessed and mitigated. For example, we identified the following risks:

    <bullet> Bedrooms and bathrooms without sufficient locks.
    <bullet> Halls and stairs without sufficient lighting.
    <bullet> Female and male residents on the same floor without access 
restrictions.

    In addition, some providers housed female veterans in female-only 
facilities that had inadequate security measures, such as inadequate 
monitoring and not restricting access to non-residents.
    We discovered serious female veteran safety, security, and privacy 
issues at one site that required immediate VHA management attention. 
Two homeless female veterans were housed in a male-only approved 
provider facility. The two female residents shared a bathroom with male 
residents without an adequate lock and had sleeping rooms on the same 
floor as male residents without adequate barriers restricting access to 
the female rooms. We found that since fiscal year (FY) 2002, VA's GPD 
program staff had placed 22 homeless females in this male-only approved 
facility without adequately addressing the safety, security, and 
privacy needs of the female veterans. The GPD program medical facility 
staff said they were unaware that the facility was approved as a male-
only facility. After we discussed this situation with the VA Medical 
Center Director, VA staff took immediate action and moved the two 
current female veterans residing in the provider facility to 
alternative housing (Veterans Health Administration--Safety, Security, 
and Privacy for Female Veterans at a Chicago, Illinois, Homeless Grant 
Provider Facility, September 6, 2011).
            Management and Oversight of Medications Issues
    During our field visits, we found that 23 percent of GPD program 
providers did not ensure safe storage of homeless veterans' prescribed 
medications, to include controlled narcotics such as oxycodone and 
Vicodin. VHA does not provide a standard for ensuring the storage of 
medications prescribed for homeless veterans, nor does VHA require 
grant applicants to address the management of medications as part of 
the application process. Without standards for ensuring providers 
adequately manage and store medications, unnecessary risks, such as the 
misuse or the overdose of medications, may occur to a veteran's health 
and rehabilitation if needed medications are lost or stolen.
            Dietary Needs Issues
    VHA requires medical facility nutritionists to ensure that meals 
served by community agencies funded under the program are nutritionally 
balanced and appropriate for homeless veterans. VHA requires annual 
inspections and provides an inspection checklist. However, our results 
show that VHA lacked assurance that those veterans requiring special 
meals to meet medical concerns, such as hypertension, high cholesterol, 
or diabetes, were addressed consistently.
    VA medical facility nutritionists did not ensure 12 percent of GPD 
program providers offered adequate meals that were nutritionally 
balanced and appropriate for homeless veterans. For example, one GPD 
program provider was not providing meals according to their published 
menu plan and special dietary meals were not provided to four veteran 
residents who had special dietary restrictions due to hypertension or 
diabetes. Veteran residents told us the provider had never served the 
meals described in the plan or provided special dietary meals. The 
nutrition clinician did not interview resident veterans or the medical 
facility's GPD program staff or conduct subsequent inspections and 
visits to ensure that the provider was following the approved menu 
plans or providing special dietary meals. Therefore, VHA did not detect 
that the provider was inconsistently providing the meals required by 
the grant.
    We also confirmed veterans' allegations that the provider did not 
serve three daily meals during the weekend, as required by the GPD 
program. After discussing this issue with VHA program officials and the 
VA medical facility director, the provider implemented significant 
remedies, such as conducting weekly inspections of food service 
operations, providing three meals daily, and soliciting feedback from 
veteran residents to address our concerns.
            Grant Evaluation Process and Monitoring Program
    VHA needs to strengthen the grant evaluation and the oversight 
process of the GPD program. Lapses in oversight and grants management 
are related to an application evaluation process that does not identify 
or analyze risks in the applications.
    VA does not require grant applicants to document their policies and 
procedures or VA medical facility staff to review veterans' safety, 
security, and privacy issues prior to Government funds being awarded, 
such as access restrictions at multi-gender facilities. Additionally, 
VA medical facility staff do not consistently review these issues 
during their annual inspections because it is not addressed on the GPD 
program inspection checklist.
    The GPD program's application process did not ensure grant 
applicants clearly identified the group of homeless veterans for whom 
the provider planned to provide support services or address safety, 
security, and privacy issues, especially for homeless female veterans. 
Without requiring grant applicants to clearly address these issues in 
their applications in relation to standards that help ensure the 
quality of services to be provided, VHA cannot assess the potential 
risks to homeless veterans residing at the provider facilities. In 
addition, GPD program staff cannot fully or effectively measure the 
providers' performance.
    GPD program staff visited provider facilities regularly, however, 
the staff often overlooked conditions and failed to identify potential 
risks to resident veterans, such as adequate lighting and gaps in 
building security. At one site, for example, our auditors observed that 
electrical outlets were overloaded increasing the risks of electrical 
fire.
    Another example of poor grant evaluation is apparent in the dietary 
needs issue discussed earlier. GPD program application procedures do 
not require a description of how they will provide meals or meet 
special dietary needs. According to VHA, the purpose of the annual 
inspections at provider facilities is to ensure providers carry out 
activities as detailed in their original application or approved 
changes to scope. However, when applicants are not required to describe 
how they will provide meals or meet special dietary needs, VHA has no 
criteria to evaluate performance or to make informed decisions 
regarding whether the needs of homeless veterans will be met 
effectively. Without a comprehensive inspection checklist, VHA lacks an 
effective monitoring tool to ensure adequate meals are provided and 
appropriate for veterans needing and relying on their support services.
Program Evaluation
    VHA needs to improve GPD program evaluation procedures to ensure 
program funding is effectively aligned with program goals. 
Specifically, the GPD program did not do the following:

    <bullet> Effectively assess bed capacity against funding priorities 
and underserved geographic areas.
    <bullet> Accurately report program outcomes.
    <bullet> Correctly determine veterans' eligibility to participate 
in the program.
            Bed Capacity
    VA's FY 2011--2013 Homeless Initiative Operating Plan identifies 
GPD program deliverables, such as creating an additional 1,500 
transitional beds and serving approximately 18,000 veterans in FY 2011. 
VHA establishes funding priorities to ensure geographical dispersion of 
support services, prevent duplicate services, and bolster capacity in 
underserved regions, such as in rural areas. However, the GPD operating 
plan does not provide detailed goals for increasing transitional bed 
capacity for specific funding priorities. An example of a funding 
priority is providing services to women veterans and women veterans 
with care of dependent children, which VHA designated as their highest 
funding priority for the past 3 years.
    VHA did not adequately assess or manage transitional bed capacity 
against their funding priorities and underserved geographic areas, such 
as female veterans and homeless veterans living in rural areas. More 
importantly, the GPD program did not maintain reliable data that would 
enable GPD program officials to accurately assess the program's 
effectiveness toward achieving sufficient bed capacity for their 
priorities or other specific homeless populations, like homeless rural 
veterans. Reliable data on the gender of the population being served, 
the number of beds available for use by gender, and geographical 
description (rural or non-rural) are necessary to compare and assess 
current transitional bed capacity with projected transitional bed 
capacity needs for homeless women and veterans, including homeless 
veterans residing in rural areas.
    VHA did not have an effective mechanism to assess the GPD program's 
progress toward achieving sufficient bed capacity for funding 
priorities or specific homeless populations. Information was not 
available to identify bed capacity goals and the data to measure 
progress toward those goals. Without this information, VHA cannot make 
sound policy adjustments to funding priorities to ensure bed capacity 
where support services are needed most.
            Accurate Reporting of Program Outcomes
    The GPD program did not accurately report discharge outcomes of 
veterans from the program. Our review found that 26 percent of 
veterans' discharge information was inaccurate. Reporting program 
outcomes, such as the reason the veteran ended residential treatment 
and the veteran's living situation at the time of discharge, were 
inaccurately reported to VA's Northeast Program Evaluation Center 
(NEPEC). This information was generally relied upon to determine the 
success of each GPD provider and the overall success of the GPD 
program. NEPEC conducts evaluations for several VHA programs including 
the GPD program and tracks care provided to homeless veterans from 
admission to discharge.
    A 2006 report from the OIG, Evaluation of the Veterans Health 
Administration Homeless Grant and Per Diem Program (September 20, 
2006), revealed that in 24 percent of the records reviewed, VHA could 
not support submitted discharge information and in some cases, provided 
a different or contradictory outcome. We have a significant concern 
that the quality of the program information has not improved in more 
than 5 years; clearly, management attention is needed to correct this 
issue.
    In more than half of the cases, VHA case managers inaccurately 
reported to NEPEC that the veteran successfully completed the program. 
However, our recent work estimated 13 percent of the case files 
inaccurately reported the reason a veteran ended residential treatment. 
Program documents stated veterans were removed from the GPD program for 
violating the provider's program rules or the veteran left without 
completing the program. In some cases, the medical facility's GPD 
program clinician entered the data incorrectly.
    We also found 20 percent of case files inaccurately reported the 
veteran's living situation at the time of discharge. Clinicians select 
from seven choices, such as single room occupancy and apartment, room, 
or house. The response, ``apartment, room, or house,'' accounted for 63 
percent of the errors. For example, one GPD program grant had 12 
instances where veterans completed their current rehabilitation program 
and were discharged to a supportive housing situation at a residential 
treatment program. The program documentation and NEPEC data stated the 
veterans had been discharged to an ``apartment, room, or house'' rather 
than the correct choice of ``residential treatment program.'' VA 
medical facility GPD program clinicians did not report program outcomes 
accurately because NEPEC's data collection form did not clearly define 
the meaning of the questions' choices. The lack of more specific 
definitions or elaboration of the terms used in the questions increased 
the risk of misinterpretation by medical facility GPD program 
clinicians.
    Reporting of inaccurate program outcomes also occurred because of 
the lack of an effective monitoring system to improve the quality and 
reliability of information used for making policy decisions. VHA needs 
to establish better controls to ensure the reporting of accurate 
outcome data. Without quality and reliable data, policymakers cannot 
effectively perform their oversight responsibilities to ensure that 
program funding is effectively aligned with program goals and that 
program goals are met.
            Eligibility Requirements for Homeless Veterans
    To be eligible for the GPD program, VHA requires veterans to be 
homeless and defines a ``homeless'' veteran as a person who lacks a 
fixed, regular, adequate nighttime residence and instead stays at night 
in a shelter, institution, or public or private place not designed for 
regular sleeping accommodations. We found that participating veterans 
took leaves of absence from work and temporarily left their homes to 
participate in the substance abuse program. Thus, these veterans were 
incorrectly identified as homeless and receiving GPD housing support 
services. For one GPD program grant, we found that 23 percent of 
veterans had not been homeless when admitted to the GPD program.
    Ineligible veterans using these program support services were not 
identified because VA medical facility staff believed these veterans 
were experiencing difficulties that could lead to homelessness, such as 
substance abuse or the veterans were considered to be at risk of 
becoming homeless. However, the veterans were clinically managed by the 
VA medical facility substance abuse program staff rather than the GPD 
program staff. As a result, VHA incorrectly spent approximately $6,000 
during a 6-month period to provide housing to veterans who were not 
homeless and reduced the opportunity for other eligible homeless 
veterans to receive supportive services that could improve their lives 
and end their homelessness.
                veterans benefits administration issues
    The Homeless Veterans Comprehensive Assistance Act of 2001 (P.L. 
107-95) authorized at least 1 full-time employee to oversee and 
coordinate homeless veterans programs at each of the 20 VA regional 
offices (VAROs) that VA determined to have the largest veteran 
populations. The Veterans Benefits Administration (VBA) directed that 
the public coordinators at the remaining 37 VAROs be familiar with 
requirements for improving their communication with homeless veterans. 
These requirements included attending regular meetings with local 
homeless shelters and service providers. VBA staff provides valuable 
services to homeless veterans by assisting homeless veterans with 
filing of claims for medical disabilities and other benefits.
    OIG Benefits Inspectors have issued nine inspection reports that 
included our independent assessments of the VAROs' communication with 
homeless veterans. Four (44 percent) of the nine VAROs did not 
consistently communicate with homeless veterans. The overarching issue 
at the three VAROs was the lack of a clear mechanism to assess the 
effectiveness of their communication with homeless veterans, and the 
staff responsible for these activities did not always understand their 
duties and responsibilities. As a result, we made recommendations to 
VBA to strengthen their communication efforts with homeless veterans 
and provide training to staff assigned these communication 
responsibilities. We will continue to review this important VBA 
responsibility during future VARO inspections.
                               conclusion
    Throughout our audit we held productive discussions with VHA 
homeless program officials and they have demonstrated significant 
interest in improving the GPD program. VA is taking actions to 
strengthen controls to ensure the safety, security, health, and welfare 
of veterans participating in the GPD program. In response to our 
recommendations, the Under Secretary for Health agreed to strengthen 
the grant application process and evaluation process by publishing 
policies and standards, updating their inspection checklist, and 
implementing procedures to ensure grant providers have the capability 
to deliver services where these services are needed. Further, the Under 
Secretary agreed to establish bed capacity goals, maintain program 
data, implement procedures to improve reliability of program 
information, and provide training on program eligibility. We plan to 
monitor the implementation of VHA's action plan and follow up to assess 
the effectiveness of future program management. We expect these efforts 
will help to ensure that this program delivers effective support 
services to homeless veterans and that the program funding is used as 
intended.

    Madam Chairman, thank you for the opportunity to discuss the OIG's 
work related to VHA's Homeless Providers Grant and Per Diem Program and 
VBA's communication with homeless veterans. We would be pleased to 
answer any questions that you or other Members of the Committee may 
have.

    Chairman Murray. Thank you very much for your work on this.
    Ms. Strickland, let me start with you. You contacted the VA 
and asked for help. Obviously, they just said to you nothing, 
right, no response?
    Ms. Strickland. No. To me their basic concern was my mental 
health because I shared with them everything that was going 
wrong with me, and their first question was are you mentally 
stable.
    Chairman Murray. So, you were not assigned a case manager 
or referred for employment or training services or anything?
    Ms. Strickland. No.
    Chairman Murray. What do you think they should have said 
when you first called?
    Ms. Strickland. What do you need? Not what I wanted or what 
they wanted for me, but what I needed. If they were not able to 
provide the resources themselves, provide resources that I 
could reach out to.
    I was not even given that. They just told me that they 
could give me a list of shelters. I could do that myself. But, 
I mean, I just feel there should be some type of partnership. 
If they are not able to assist or provide the assistance, then 
there should be partners that they work with that they could 
refer a veteran to. So that they are not just left when they 
hang up their phone feeling hopeless because that is how I 
felt.
    Chairman Murray. Ms. Halliday, your testimony was really 
eye opening, I think, telling someone that they are going to be 
someplace sleeping without a lock on the door, bathrooms that 
do not have locks, insufficient lighting.
    Ms. Strickland, what would that type of environment have 
meant to you?
    Ms. Strickland. An unsafe environment?
    Chairman Murray. Yes.
    Ms. Strickland. I would have stayed in my car. It is 
different when you have children. You know, I mean, of course, 
I think of my safety, but I think of my children as well. There 
are programs, but it is not enough for women with children.
    Yes, I could have gone to other shelters but I would not 
have been able to take my children with me. And then a female, 
just from being a woman, you want to be able to feel that when 
you go to a transitional home or shelter that you do have 
adequate safety.
    Chairman Murray. Basic.
    Ms. Four, Reverend Rogers, what would that have meant for 
the women who live in your facility?
    Ms. Four. Let me just say that we do have, that is the 
agency, a 30-bad transitional program exclusively for women 
veterans. I believe that in some cases the women do come there 
because it is a place that they know is safe, that they know is 
secured. We take, you know, great attention to that.
    I think one of these situations that exist is there are so 
few of these programs in the community that are exclusive to 
women veterans that are designed for them to address their 
tremendous needs, that and that is one of the shortfalls also.
    Chairman Murray. Reverend Rogers, what is the importance 
for safety and security and basic things like that for your 
clients?
    Mr. Rogers. It is absolutely paramount. We really felt like 
it took almost 2 years for us to earn that trust in making sure 
that we could commit the amount of resources that were needed.
    That is why I asked you all to consider some kind of a 
challenge grant. The community wants to respond, but because 
the numbers of women and their children are low and even though 
we have them housed separately and they are able to have their 
own rooms and facilities, it is at a much greater cost.
    With a little bit of extra help from this Committee and 
from Congress, we can provide not only that safety and security 
but then also really address the professional needs around 
sexual trauma, having well-trained staff, being able to really 
train our volunteers.
    I have got women who want to mentor other women, but do not 
always understand the level and complexities of that trauma. We 
would like to be able to have the funding and the support, and 
we believe we can get it matched by the community with some 
leadership here because we do not again believe in the 
entitlement system but we do want you to help us create the 
incentives but with the funding to overcome these smaller 
numbers but dealing with more complex issues.
    Chairman Murray. And, you know, both the VA's Inspector 
General and the GAO really made it clear that VA has to improve 
their services for homeless women veterans.
    But reports that were issued by two organizations and 
oversight by my staff have found really disincentives for 
homeless women veterans to seek VA's housing programs, 
including no minimum standards for gender-specific safety and 
limitations on available housing options for homeless women 
veterans especially those with children.
    So, my question to all of you is: What would you direct the 
VA to do today to serve homeless women veterans?
    Ms. Strickland, if you had the opportunity to say to the VA 
do this, what would it be?
    Ms. Strickland. Provide adequate programs that can deal 
with the unique needs of female veterans.
    Chairman Murray. The basics, safety, security, locks, 
privacy?
    Ms. Strickland. Yes. And then resources to help us to get 
back on our feet to become self-sufficient so that we do not 
become----
    Chairman Murray. Chronically homeless.
    Ms. Strickland. Exactly.
    Chairman Murray. Ms. Four.
    Ms. Four. I think it would certainly be how issue of 
security really impact our ability to focus on the programs 
they have to work in.
    I think it is very important that the VA truly does some 
oversight of what they have in order to remold and work with 
some of the opportunities they have in front of them.
    I think that the addition of some extra funding through 
special-needs grants for those programs that want to do the 
work with women. It can be quite costly because the staff that 
is needed and the support that that grant allowed for 
assistance to families while they took care of the children 
while the women were attending to some very specific and very, 
you know, important work in the mental health field, I think 
that is another place.
    Also, to really make an evaluation of how many military 
sexual trauma-specific residential treatment programs there are 
in this country. Then to determine if they are a far distance, 
how do you expect the homeless women to get into those 
programs, to travel there?
    Chairman Murray. Reverend Rogers.
    Mr. Rogers. First, I want to say to, Ms. Strickland, thank 
you for your courage, and I am sorry for your experience.
    We simply ask the VA to be right there with us. And what we 
say is to do what Charles George VA Medical Center in Ashville 
does: they train their staff. Their staff are with us as much 
as 3 and 4 days a week, in our facility working with both our 
women and our men.
    They are also saying that we are going to be the advocate, 
the ombudsman, right alongside us as faith-based and other 
community-based providers. I think it is when they exhibit and 
put in place professional men and women with that same passion 
that it really makes the difference because nobody can 
underestimate the power of saying ``welcome home veteran.''
    Chairman Murray. Ms. Halliday, final comment.
    Ms. Halliday. We would like to see the VA transition away 
from the reliance of providing these services in multi-gender 
facilities. We would like to see incentives put in place for 
special needs to ensure that female veterans needs are met.
    I think VA would possibly explore using contracts outside 
of the Grant and Per Diem Program to fit the unique needs of 
female veterans, especially when they do not represent a large 
number. They could be smaller and be economically better 
solutions.
    Chairman Murray. Senator Brown.
    Senator Brown of Massachusetts. Thank you.
    Ms. Strickland, first of all, I read your testimony and 
thank you for sharing your personal experiences. I want to 
commend you for your grit and determination and perseverance 
notwithstanding all the challenges that you had and continue to 
have. I read with interest your new situation where you are now 
at Final Salute, Incorporated. I think you are still there?
    Ms. Strickland. Yes.
    Senator Brown of Massachusetts. Yes. How do you find that 
program in terms of getting you to that path of independence 
and obtaining your auto body shop and other endeavors, how are 
you moving along, how are you dealing with your financial 
assistance, how are things working out with the kids? I mean, 
where are you in terms of, you know, balance in your life? How 
is that coming along?
    Ms. Strickland. Right now, I am on the path to becoming 
self-sufficient. I am still working with the temp agency. So, I 
do have consistent employment. I am still fervently seeking 
full-time employment. But in the interim, I just continued to, 
you know, press on. The program that I am in, Final Salute, is 
a unique program because it is catered to the specific needs of 
each person.
    There are four females in the home, and we all have a 
unique situation. So, we are actually told to give a plan of 
what we intend to do with the 2 years we have at the program.
    So, with that, they cater to what our specific needs are. 
So, mine, of course, was to continue my entrepreneurship, to 
maintain or to get the physical custody of my children. So, 
they are providing the resources as far as, you know, obtaining 
a lawyer for me.
    As far as the entrepreneurship, you know, they are 
providing resources and conferences that I can attend to be 
more able to do that.
    I do not have any mental health issues. They do or they 
have set me up with a mentor, you know, that I can talk to as 
far as support because like I said when you are homeless it is 
one thing, but then when you are dealing with other emotional 
issues it is another.
    Senator Brown of Massachusetts. Correct. Well, looking at 
your challenges here, being homeless and dealing with the 
children, that is one issue. You can survive and you can do 
your thing, but then you throw in the other challenges of 
having children and not wanting to lose them and obviously keep 
that family unit together and then having possible threats 
against your life and your safety and security.
    Ms. Strickland. Right.
    Senator Brown of Massachusetts. So, as I said, thank you 
for your sharing that story. It is personal in nature, 
obviously.
    I was disturbed when I read that when you called the VA for 
help, they basically blew you off. It is what we are hearing a 
lot, whether it is dealing with claims, whether it is dealing 
with these types of assistance issues, that lack of personal 
touch, which sometimes is all you need.
    If somebody says, hey, listen, we do not have the ability 
to take care of you because of your situation, however, we have 
a group like Reverend Rogers does, similar to him, in your city 
or town and give you a whole list and contact and then follow 
up with you maybe in a day or two or three, none of that was 
really provided. You got kind of a list here. These are the 
shelters. See you later. Thank you very much. Is that an 
accurate statement?
    Ms. Strickland. Correct.
    Senator Brown of Massachusetts. Well, that is unacceptable.
    Reverend Rogers, I know that you have a big fan on this 
panel. He is here and was nice enough to allow me to chair 
this, and I am honored to do so. I want to thank you for what 
you all do.
    What do you think separates your program from others? I 
mean, why is this not going viral all over the country?
    Mr. Rogers. Well, that is an excellent question. I really 
think that there is maybe not as much emphasis on the 
community-based and faith-based partnerships that can be put 
together.
    When you begin to really grasp what volunteers both from 
the faith-based and community-based organizations can do--
offering them both professional training as well as a kind of 
support system-- they respond manyfold.
    Senator Brown of Massachusetts. Well, how do you deal with 
costs too within that model? How do you actually pay the bills?
    Mr. Rogers. Yes. Thank you for asking that.
    We are paying the bills by doing both. Once they are 
exposed to do the needs of our veterans, they see both the gaps 
between what our Grant and Per Diem funds or our HVRP funds can 
provide.
    For example, with our Homeless Veterans Reintegration 
Program and Veterans Workforce Investment Program dollars, we 
had more veterans applying for education, and I am talking 
about quality certification skills in health care and Internet 
technologies and transportation.
    But when a CDL license costs $4,000 right up front, we 
found ourselves with some significant gaps. The community 
responded and provided the extra dollars. We have a friend down 
in Hendersonville, Jeff Miller, who has started Operation 
Welcome Home in response to education and training. The same 
with food, with clothes, we have got----
    Senator Brown of Massachusetts. So, it is a community-based 
effort. Everyone kind of gives a little bit and ultimately, at 
the end of the day, you are squared away.
    Mr. Rogers. Yes, sir.
    Senator Brown of Massachusetts. Ms. Halliday, do you thing 
the VA is taking the necessary steps to correct a lot of the 
problems outlined in the OIG's audit?
    Ms. Halliday. I think the VA has worked with us very 
diligently to make sure they could implement the 
recommendations. I think the group in VHA headquarters has 
taken this seriously, has realized that they have problems and 
has been very receptive to correcting problems.
    As far as our assessment of how well they have implemented, 
it is too early.
    Senator Brown of Massachusetts. All right. Thank you.
    Chairman Murray. Thank you.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Madam Chair.
    Before I ask some of my questions if I could just 
acknowledge that we have two Alaskans here. One is Chris Duncan 
of Alaska Housing Finance Corporation, who does our homeless 
coordination for the State, as well as Oscar Sedona, Anchorage 
Homeless Coalition. Again, we are very happy that they are here 
but also it does not matter where you are, what State you are 
from there is an issue and the struggle and the challenge that 
we have with homeless veterans.
    So, first, Sandra, thank you for your testimony. I was not 
here to hear your testimony, but I read your testimony. 
Incredibly impactful, and someone who personally has dealt with 
homeless veterans as the landlord and reaching out to homeless 
veterans programs to try to get them more standard and stable 
housing situations.
    I have seen it firsthand as a manager and operator of 
facilities, small apartments, to ensure they will be able to 
move through and get some housing.
    Let me ask you if I can: you made some comments to the 
Chairwoman regarding what can VA do differently. Do you think 
in your experience, and this is actually going to go also to 
you, Linda, the same question, and that is: do you think the VA 
has the capacity within their operations and organization to 
provide the services that are necessary?
    In other words, Reverend, you make a very good point. When 
I was mayor, we worked with a lot of faith-based groups and we 
put aside this whole debate over church and State because we 
had individuals and veterans that we needed to deal with and 
solve these problems.
    Mr. Rogers. Yes, sir.
    Senator Begich. We were not interested in hearing the 
philosophical debates. We were more interested in hearing about 
what we could do as a community.
    So, do you think from your experience that even with some 
changes that are coming, do you feel confident that VA can make 
it happen? In other words, if you had someone come to you who 
is homeless, a veteran, and ask where can I go, Reverend, for 
help, what would you do?
    That may be a real heavy question, but that is to me what 
is important is what is the right allocation of who should be 
doing what and how, so we can improve this system because it is 
not a VA system by itself. It is a collective system.
    Ms. Strickland. I agree with you that it is a collective 
system. If someone were to come to me and mentioned that they 
were homeless, I would, just from the little knowledge that I 
have of organizations, I would point them into the direction of 
the community-based organizations.
    Senator Begich. As your first choice?
    Ms. Strickland. Correct. I think that the VA, if they could 
partner with other organizations that can focus on the unique 
needs, because, you know, the VA is this big organization but 
there are the little teeny bits of spots out there that need to 
be addressed.
    Senator Begich. Connect into the system.
    Ms. Strickland. Correct, a joint effort.
    Senator Begich. I will give you an example. We have a 
program in Anchorage--from the real estate industry we worked 
with a group called Safe Harbor which actually provides the 
units--it is for families; it basically was a hotel but really 
designed for families and I think the largest family there, and 
Dianne can remind me, I think it has nine members, to give you 
a sense.
    But each unit was owned by an agency or multiple units were 
owned by the agency and the cost per day was maybe $15 to the 
agency, fully loaded facility.
    So, at any moment someone could transition there quickly, 
safely, to a clean environment, community kitchen, and 
community environment. Then they would bring in folks to work 
with, you know, people to ensure they have jobs or education or 
whatever they were looking to do.
    I think it is an incredible model, and it was not a 
government-run model. It was a mixture between foundations, 
faith-based, and community model. That is the kind of thing you 
are referring to. That is how the VA could partner maybe.
    Ms. Strickland. Correct.
    Senator Begich. Linda, you kind of heard the discussion. 
The VA wants to do well. I know that from your comments here 
but also the conversations that we have had.
    Do they have the ability to do it or do they need to kind 
of rethink this model a little bit more and turn to folks like 
Reverend Rogers or Safe Harbor, for example, or to some of the 
things we are doing in Alaska with homeless coalitions?
    I mean, are they too bureaucratic that they may not be able 
to adjust and be flexible enough or do you think they can do 
it? Does that make sense?
    Ms. Halliday. That is a good question. Right now we believe 
that the VA does not have the type of information it needs to 
really assess where it needs the services.
    Grants are prepared. The applications are submitted. That 
does not necessarily mean that all of the areas that need these 
services are getting those services.
    So, I would also say they probably have to look outside the 
model.
    Senator Begich. Do you think they have the capacity to do 
that?
    Ms. Halliday. Yes. I think that it is going to come down to 
the coordination within the programs and getting the Office of 
Rural Health to work with the homeless programs in VA, to deal 
with the tribal governments. There has to be coordination.
    Senator Begich. More looped together?
    Ms. Halliday. Yes. So, I do think they have it. Right now, 
I would say they do not have all the information they need. 
They have agreed to go and get that information so that they 
can better assess where the needs are and to deliver the right 
services.
    Senator Begich. Very good.
    Thank you, Madam Chair, because to me that is the crux of 
it all, at the end of the day if they cannot get there, all the 
reports we do are just going to be reports.
    I guess that is our job to have this oversight to make sure 
they make it to that next stage. So Sandra has a choice with 
someone who comes to her--because I think you are going to be a 
role model of how you see the system and you see where it works 
and it does not--where do we direct them? We want VA in the 
mix, but we also want community services in the mix.
    Thank you very much.
    Chairman Murray. Thank you very much. We have been joined 
by my Ranking Member, Senator Burr.
    Senator Burr, did you have any questions?

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. I thank the Chair, and more importantly, I 
thank you for holding this hearing. It is absolutely vital.
    Scott, welcome.
    Mr. Rogers. Thank you.
    Senator Burr. My apologies. I was not here at the beginning 
to welcome you, and I welcome all of our witnesses today.
    Just a couple of observations and then one or two 
questions. It struck me as I read the testimony and then heard 
most of you give your verbal testimonies that what we have 
really got is we have got two entities looking at different 
things.
    We have got private sector, faith-based organizations that 
seem to look at a veteran who is homeless from a standpoint of 
what they can do to affect the rest of their lives, and we have 
got a VA that is focused on what the crisis-du-jour is today, 
somewhat ignorant of what tomorrow has in store.
    I think it gets to some degree as to what the IG's report 
identified. I think there is a deep willingness on the part of 
this Committee to try to bring these two things into one 
alignment.
    It shocks me to some degree, as much as the Chairman has 
been focused on homelessness and the stated commitment of the 
Secretary and the VA that we seem to be ignorant of the 
successes that exist in communities all across the country.
    By no means do I portray that this is intentional. But I 
think every Member of this Committee, and probably every Member 
of Congress, can highlight a successful program in the 
communities that they live or that they represent.
    Scott, I am not sure that there are any better than what we 
do in Asheville. Many of the things that you have been able to 
accomplish there, the vision of purchasing a bankrupt hotel or 
motel to open up as a veterans' outreach program is a visionary 
in itself.
    The fact that we have got a VA facility that understands 
the problem in the community well enough to partner in a non-
traditional way with a community organization to the degree 
that I think, if I am right, the VA has now placed a nurse on 
your campus----
    Mr. Rogers. Yes.
    Senator Burr [continuing]. Which eliminates the challenge 
of transportation and things because you were able to convince 
the VA why that benefits their overall delivery of care when 
you actually are able to treat people before they are in 
crisis.
    Ms. Strickland, I cannot thank you enough for your personal 
observations, a little bit of insight as to how you have lived 
it. I would hope that your testimony and others inspire the VA 
to look within, take the IG's report, admit that they do not do 
everything right and I think I take your own testimony, you 
said, VA cannot do this alone.
    Ms. Strickland. They cannot.
    Senator Burr. I think to some degree that is reinforced by 
what the IG's report came out with. So, my questions are pretty 
simple.
    Ms. Halliday, do you feel the outlines, the problems 
outlined in your testimony, and the recent audit are problems 
specific to the Grants and Per Diem program or are they 
systemic throughout the VA's homeless system?
    Ms. Halliday. At this point, we would have to answer that 
we looked at the Grant and Per Diem program and that is where 
we identified the problems. We do think that there are some of 
these issues that are impacting VA's efforts to move forward in 
eliminating homelessness. You have to have a needs assessment 
to know where to deliver these services and what is really 
needed, and we did not see the program information in place to 
make those good decisions.
    Senator Burr. OK.
    Scott, let me ask you as it relates to your organization 
and specifically your outreach for veterans. Of those that 
participate in your program, how do you measure successful 
outcomes?
    Mr. Rogers. Well, Senator Burr, first, I want to say thank 
you for being such a champion of veterans and veterans issues 
and such a wonderful champion for North Carolina.
    The success that we measure really is built on the 
principles of the Grant and Per Diem program which calls us not 
only to move them intentionally through this continuum of care 
where we have benchmarks--they are stability benchmarks--around 
both personal skill building, education, job training and 
placement, and then placement in permanent housing.
    But we do follow them as a Grant and Per Diem program calls 
for up to 18 months to 2 years after they leave. I think it is 
following them for that period of time and this is where 
strength of the HVRP program of the Department of Labor comes 
in as well.
    They go back 18 months and take our list of the men and 
women we placed in the workplace. They tell us that, for 
example, in the last one here in January, 87 percent of those 
who were placed 18 months earlier are still on the job and 
averaging in that $12 to $14 an hour range.
    We measure success also according placement in permanent 
housing. The national goal and an average is about 60 percent 
in 2011. Our number was 76 percent were placed in permanent 
housing that were identified.
    So, it is not only that but then for us there are two other 
measures. First is the reintegration really back into the 
community through not only civic organizations but also their 
family of faith.
    What we find is that when these men and women are connected 
through civic organizations or through their faith group, they 
have the internal and external supports they need.
    Then last is when we have the opportunity to see them 
reintegrate into family. Sometimes that is biological family 
where the bridges are not burned too badly. Other times it is 
just restarting, reconnecting as Ms. Strickland has been able 
to do, maintaining those connections with children, maintaining 
those connections with a new family.
    One of our most touching stories has come from one of our 
veterans, Ron Kennedy, who after completing successfully having 
the job, having the housing, answered an e-mail that simply 
said, could you be my daddy.
    He had had a child over in Germany, and she was reaching 
out she said for the last time. For him to connect with a 
daughter he had not seen since she was 1 year old and then to 
have the chance to come and connect has truly been life-
changing for him, and that is what we see.
    Senator Burr. Thank you for that.
    Chairman Murray. Thank you very much.
    We will turn to Senator Boozman for his questions. We do 
have a second panel and votes at 11:30. So, we are going to 
move through quickly our second panel.
    Senator Boozman. Thank you very much. We appreciate all of 
you being here; really appreciate you being here, Sandra. It is 
so important that people, you know, such as yourself, you are 
very bright and articulate and you really put a face, you know, 
instead of a number, you know, a statistic.
    So, we appreciate you having the ability and the courage to 
come share with us your particular problem so that we can help 
you and others as we move forward.
    We have a guy that we are very proud of in Arkansas, a guy 
named Keith Jackson, who was an All-American Oklahoman and went 
on, was an All-Pro and things. He is a tremendous motivational 
speaker and is somebody I have a lot of respect for.
    But his comment about the things was that the government 
has the want-to but they do not have the heart, and I think 
there is a lot of truth in that. We are desperately trying to 
get these things done but it is just not the same as, you know, 
the good care, not bad care but the heartfelt care that you get 
with some of the faith-based organizations. I think Senator 
Begich summed that up very well, the importance of doing that.
    My question, though, as we move to that and we are moving 
to that and we are having good results, and yet, we have some 
problems.
    And so, Linda, I guess what I would like to know is how do 
we get the oversight that we need to ensure that those programs 
are functioning well.
    There is a lot of money involved now. When that comes 
about, you know, there are always people who take advantage. I 
hope that the errors that you found were basically errors but 
not criminal activity. Did you find any criminal activity that 
bordered on that? Did it go that far or was it more----
    Ms. Halliday. No. Since our focus was really on the quality 
of the services being provided and not looking at any 
disparities or problems with losses in per diem or misuse, we 
do not have criminal activities.
    I would like Gary Abe to get an opportunity to answer a 
question. We have brought him in from Seattle and his group did 
all the work.
    Senator Boozman. Yes. Gary, how do we do a good job of 
ensuring that, you know, that we do not have problems going 
forward, more problems?
    Mr. Abe. I think that we had some real serious discussion 
with the program management folks, and I think that they 
understand that they do need to have better oversight from the 
top.
    We have also had a lot of discussions while we were at the 
sites, at the medical centers. I think the directors there and 
the program folks at the local level, they understand that they 
need to have better supervision of the providers.
    Some of the things that we have reported in our audit in 
regards to the safety concerns, for instance, it was pretty 
obvious that they were lacking, and basically, when we walked 
through providers' facilities it was very obvious for us, but 
for the local folks they just sort of overlooked it. Then 
again, that is the oversight that is needed.
    Senator Boozman. So, how do we keep them from overlooking 
it?
    Mr. Abe. Well, I think it is pressure from the top all the 
way through to the bottom.
    Senator Boozman. Good. And again that is the importance of 
a hearing like this is trying to illustrate that.
    Scott, you mentioned that, as you were speaking, that we 
needed more innovative training in PTSD and things like that. 
Can you give us some examples of what you are alluding to?
    Mr. Rogers. I can. Our VA at the Charles George VA medical 
center has reached out to the local community to help draw in 
both trained professionals in PTSD, for example, in art therapy 
and music therapy.
    We have a group that has approached us with the Biltmore 
Estate to offer equestrian training through their Biltmore 
Equestrian Center, called Operation Pegasus.
    With just a little bit of funding and support providing the 
flexibility to the VA medical center to both contract with 
those professionals to help us train the volunteers around best 
practices that have been established nationally such as the 
PATH program, we really believe we can impact not only our 
homeless veterans but, of course, those just returning from 
OEF/OIF, those who are coming back.
    We find when they are able in these different modalities to 
address their situation, to clarify their situation, to manage 
it, they soar, they do just fine.
    Senator Boozman. Thank you, Madam Chair.
    Chairman Murray. Thank you very much.
    We do have a series of votes beginning in about 12 minutes. 
We want to move quickly to the second panel. I want to thank 
everyone here at the first panel and if we can move as quickly 
as possible and have our second panel seated. I would ask for 
order in the room as we do that so we can make that happen as 
quickly as possible.
    Again, if we could have our second panel come forward and 
be seated. I really appreciate all of you taking your time from 
your busy lives and again if we could have order in the room 
please because we are introducing the second panel.
    I want to begin by welcoming Pete Dougherty. He is the 
Acting Executive Director of VA's Homeless Veterans Initiative 
Office. Pete knows his way around this room. He is a former 
Committee staffer. Good to see you here.
    He is accompanied by Lisa Pape, National Director of 
Homeless Programs and Maura Squire, a Homeless Veterans 
Outreach Coordinator. And Chanel Curry, who is a U.S. Army 
veteran from Ohio. Chanel, I want to thank you for your service 
to our country and your willingness to come and share your 
story.
    So, Mr. Dougherty, we are going to start with your 
testimony and then we shall have Ms. Chanel Curry give her 
remarks.

    STATEMENT OF PETE DOUGHERTY, ACTING EXECUTIVE DIRECTOR, 
 HOMELESS VETERANS INITIATIVES OFFICE, DEPARTMENT OF VETERANS' 
 AFFAIRS; ACCOMPANIED BY CHANEL CURRY, U.S. ARMY VETERAN; LISA 
                           PAPE, MS, 
   LISW, NATIONAL DIRECTOR, HOMELESS PROGRAMS; AND MAURA A. 
         SQUIRE, HOMELESS VETERANS OUTREACH COORDINATOR

    Mr. Dougherty. Thank you, Chairman Murray. We appreciate 
the opportunity to be here with you and Senator Burr and the 
Senator Begich. This Committee has been a great aid to the 
effort that the Department of Veterans Affairs have made.
    You have already introduced the folks that I am here with. 
So, to speed this along, let me thank the Committee for what 
the Committee has done because I think what you have heard from 
the first panel is there are things that are working and things 
that are not working as well as we want.
    But I also want to commend the Committee because the 
Committee gave us the opportunity to move to the most important 
phase that we are now into and that is prevention.
    The first 2 years of what VA has been doing under this plan 
is to build capacity. As you know better than anyone, Madam 
Chairman, we did not have the capacity to deal with veterans 
who needed long-term housing and support services. We now have 
that with pretty good effort going forward.
    We have been building and increasing the capacity of 
treatment services for veterans. What we have now gone into is 
the ability to provide prevention services for veterans. We 
think that turning the spigot off is an excellent thing to do.
    A number of you have noted previously in questions that the 
VA should not be doing it alone. I would just remind the 
Committee that that effort is actually all being done by 
community nonprofit groups and organizations. We are 
partnering, as we do in Grant and Per Diem providers, with 
those folks to do it.
    I do want to give you a couple of highlights because there 
is some focus at this hearing that as of January of this year 
that more than 29,000 veterans and families have been housed 
under the HUD-VASH program.
    Among them, over 11 percent of those have been women 
veterans, and 28 percent of those women veterans have a child 
living with them or intend to have a child living with them.
    We have moved into a Housing First model. We believe, and I 
think you have heard some testimony that supports it, that that 
is a good move if we are going to end and eliminate 
homelessness among veterans.
    We have been doing more and more working with veterans that 
are in jails and prisons and in the court diversion program, 
stopping those veterans, particularly younger veterans who are 
in for the first time facing criminal offense charges to get 
the treatment that they need rather than incarceration. That 
will have some long-term dividends as well.
    As I mentioned, the supportive services for homeless 
veterans, the prevention mode is where we are going. That is 
the future of how we are going to stop and end homelessness 
among veterans.
    Let me just give you in the first reporting cycle that we 
have as of December of this past year the first reports said 
that 6,291 participants, veterans and others participated in 
this, 3,400 veterans or 420 of whom had served in OEF/OIF and 
OMD, 545 women veterans, 15.6 percent of the veterans we are 
seeing in this program are women veterans and over 2,700 
children were getting this.
    As you know better than anyone, and as we believe, that 
holding that family together, getting them employment services, 
getting them the health care they need, getting them the 
benefits that they need, those pieces, keeping that family 
together so they never become homeless is the most important 
piece.
    You had a witness previously who was talking about some of 
the difficulties she was having. This is exactly what that 
program would be designed to do is to help that veteran before 
they became homeless to keep them out of homelessness or, if 
they had just become homeless, to get them back into services.
    We appreciate what they Committee has done. We appreciate 
what you and others have done. We realize that we are in a 
short timeframe, and I would ask that Chanel Curry, who is 
here, give you an opportunity to tell what her experience has 
been.
    [The prepared statement of Mr. Dougherty follows:]
   Prepared Statement of Pete Dougherty, Acting Executive Director, 
   Homeless Veterans Initiative Office, U.S. Department of Veterans 
                                Affairs
    Chairman Murray, Ranking Member Burr, and Members of the Committee, 
I appreciate the opportunity to discuss the Department of Veterans 
Affairs' (VA) commitment to ending homelessness among Veterans. I am 
accompanied today by Lisa Pape, National Director, VHA Homeless 
Programs, and Maura Squire, Homeless Veterans Outreach Coordinator, 
Veterans Benefits Administration (VBA) Boston Regional Office.
    It has been nearly two years since VA officials last testified 
before this Committee specifically on VA's program to eliminate 
homelessness among Veterans. In that time, VA has made excellent 
progress in our ongoing effort to ensure that, as VA Secretary Eric K. 
Shinseki said in November 2009, ``Those who have served this Nation as 
Veterans should never find themselves on the street, living without 
care and without hope.''
    In addition, VA has undergone a significant shift in the focus of 
our efforts. Our homeless program is steadily moving from one of rescue 
and recovery to one of prevention and sustainable independence. I will 
begin today by detailing VA's many accomplishments over the past year 
and will outline our program efforts to end homelessness by 2015. This 
aligns with the objectives stated in Opening Doors: the Federal 
Strategic Plan to Prevent and End Homelessness. I will then discuss 
what VA is doing to reach out to the growing numbers of women Veterans 
who face homelessness or the prospect of homelessness. Before I 
conclude, I will present VA's way forward in our efforts to end Veteran 
homelessness. And, as you requested in your invitation to this hearing, 
I will describe some of the legislative measures VA can put into 
practice only with your ongoing support.
                         recent accomplishments
    According to a supplement to the Department of Housing and Urban 
Development's (HUD) report, Veteran Homelessness: A Supplemental Report 
to the 2010 Annual Homeless Assessment Report to Congress (AHAR), ``On 
a single night in January 2010, 76,329 Veterans were living in 
emergency shelter, in transitional housing, or in an unsheltered place 
(e.g., on the streets, in cars, or in abandoned buildings).'' Since 
that time, HUD's 2011 Point-in-Time Estimate of Homelessness indicates 
that VA has experienced a 12 percent decrease in the number of homeless 
Veterans from 76,329 to 67,495.
    VA views this as a significant early step in our goal to eliminate 
homelessness in Veterans by 2015. In addition, our efforts in fiscal 
year (FY) 2011 resulted in the following outcomes:

    <bullet> VA provided services to support approximately 7,500 
additional Department of Housing and Urban Development (HUD) Housing 
Choice Vouchers, made available for use by the most needy and 
vulnerable Veterans through the HUD--VA Supportive Housing (HUD-VASH) 
Program. As of January 25, 2012, there are 29,074 Veterans and family 
members housed through the HUD-VASH Program. As of same date, 37,549 
Housing Choice vouchers have been awarded.
    <bullet> VA adopted Housing First, an evidence-based practice that 
prioritizes access to permanent housing, and through which VA provides 
case management and treatment services that homeless Veterans need to 
maintain housing and improve health care and quality of life. Adopting 
the Housing First approach enables VA to improve the lease-up rates for 
the housing provided by HUD through the HUD-VASH program for which VA 
provides case management and treatment services. This approach also 
reduces the frequency and duration of Veteran homelessness.
    <bullet> In late summer 2011, VA launched a new prevention and 
rapid rehousing initiative, the Supportive Services for Veteran 
Families (SSVF) Program, designed to serve 22,000 Veterans and their 
families who are homeless or at-risk of homelessness. SSVF awarded 85 
grants totaling $59.5 million to community agencies in 40 states and 
the District of Columbia.
    <bullet> The Veteran Homelessness Prevention Demonstration Program 
(VHPD) sites, a collaborative effort between VA, HUD, and the 
Department of Labor (DOL), began serving Veterans on March 31, 2011. 
These sites are located at Camp Pendleton (San Diego, CA), Fort Hood 
(Killeen, TX), Fort Drum (Watertown, NY), Fort Lewis (Seattle, WA) and 
MacDill Air Force Base (Tampa, FL).

    All five sites are operational and are providing homeless 
prevention services such as case management, linkage to health care 
services, and other community-related services.

    <bullet> Approximately 15,706 Veterans received services through 
Veterans Justice Outreach (jail and court outreach and case management 
services, including Veterans Treatment Courts). In particular, 11,679 
Veterans were served through Health Care for Re-Entry Veterans (prison 
outreach and case management) services.
    <bullet> The National Homeless Registry was populated with 187,000 
new entries of current or former homeless, or at-risk Veterans, 
bringing the total number of names of current and formerly homeless 
Veterans who have utilized VA's Homeless Programs to 400,000. Although 
400,000 Veterans may seem high, this number represents an unduplicated 
count of all Veterans seen in VA specialized health care programs for 
homeless Veterans over the last five years.
    <bullet> Through the Homeless Management Information System (HMIS), 
VA and HUD continue to work to collaborate on reporting Veteran 
specific information to improve programs, services, and address 
Veterans' needs.
    <bullet> VA hired 366 homeless or formerly homeless Veterans as 
Vocational Rehabilitation Specialists (VRS) in the Homeless Veterans 
Supported Employment Program (HVSEP) as of September 30, 2011.
    <bullet> VA increased completed Compensation and Pension claims for 
homeless Veterans from FY 2010 (7,754) to FY 2011 (11,197) by 44 
percent.
    <bullet> In FY 2012, VA released new procedures for expediting the 
handling of military record requests associated with homeless Veterans 
claims processing, utilizing a specific ``homeless'' e-mail box for 
easy identification and processing by the National Personnel Records 
Center.
    <bullet> In FY 2011, VA helped 83 percent of Veterans in default 
retain their homes or avoid foreclosure, an increase from 76 percent in 
FY 2010.
    <bullet> VA paid pension benefits exceeding $4.2 billion to over 
500,000 Veterans and survivors in FY 2011. Because pension benefits are 
paid to Veterans and survivors whose income fall below congressionally 
established minimum standards, it inherently assists in income issues 
related to homelessness.
          overview of programs combating veteran homelessness
    VA, together with Federal and local partners, is making progress 
toward preventing and eliminating homelessness. For example, HUD-VASH 
is the Nation's largest supportive housing initiative that targets 
homeless Veterans and their families, by providing permanent housing 
with case management and supportive services to promote successful 
recovery and housing stability. The HUD-VASH collaboration includes HUD 
providing Housing Choice Vouchers and VA providing supportive wrap-
around case management services. As of January 25, 2012, 37,549 HUD-
VASH vouchers were available to house homeless Veterans. Of these 
vouchers, 34,994 were currently in use: 29,074 Veterans were currently 
housed, an additional 4,672 Veterans had been issued vouchers and were 
actively seeking a lease, and another 1,248 Veterans had been referred 
to a Public Housing Authority and were undergoing validation. This 
leaves 2,555 vouchers still available to help additional veterans. An 
additional 10,000 vouchers are expected to become available for use in 
the coming months.
    The Grant and Per Diem (GPD) Program is VA's largest transitional 
housing program with over 600 projects providing approximately 14,000 
operational beds nationwide. Transitional housing provides participants 
the support needed to enable Veterans to move into permanent housing. 
The GPD Program utilizes a community-based transitional model, which 
includes time-limited, wrap-around supportive services with the goal of 
transitioning Veterans to independent housing. Last year over 32,000 
Veterans were provided services in these projects. In fiscal year (FY) 
2011, GPD initiated 111 new projects, providing an additional 2,015 
transitional housing beds. In October 2011, VA awarded $10.3 million to 
26 community-based projects to continue to provide enhanced services 
for special need Veteran populations (i.e., women and women with 
dependent children, elderly, chronically mentally ill).
    In 2011, VA launched the Supportive Services for Veteran Families 
(SSVF) Program. SSVF enables VA to help Veteran families stay together 
by serving the entire family. This also means children are spared the 
impact of the Veteran's homelessness. Under the SSVF Program, VA awards 
grants and provides technical assistance to private non-profit 
organizations and consumer cooperatives that can provide supportive 
services to very low-income Veteran families residing in or 
transitioning to permanent housing.
    The supportive services are designed to promote housing stability 
to eligible very low-income Veteran families. The SSVF program gives VA 
the capacity to fund non-government entities to act before a Veteran 
family becomes homeless or to act quickly if the Veteran family 
actually becomes homeless. By December 31, 2011, SSVF grantees had 
served 6,291 participants, of whom 3,494 were Veterans; 420 Operation 
Enduring Freedom/Operation Iraqi Freedom/Operation New Dawn (OEF/OIF/
OND) Veterans; 545 women Veterans; and 2,751 children.
    VA plans to expand this program in FY 2012 by offering 
approximately $100 million in grants to community partners to help at-
risk Veteran families maintain housing by gaining access to critical 
resources, while those who have fallen into homelessness can rapidly 
exit and be re-housed. For grants awarded in FY 2012, the SSVF program 
expects to serve 42,000 Veterans and family members.
         va's six strategic pillars to end veteran homelessness
    VA's focus on ending Veteran homelessness is built upon six 
strategic pillars, which are aligned with Opening Doors: the Federal 
Strategic Plan to Prevent and End Homelessness. First, VA is 
aggressively reaching out to and educating Veterans--both those who are 
homeless and those who are at risk of becoming homeless. VA does much 
of this work ourselves but we collaborate with thousands of partners at 
the Federal, state and local levels to aid Veterans. Second, for those 
homeless Veterans with acute health care needs, VA ensures treatment 
options are available, whether for primary, specialty or mental health 
care, including care for substance use disorders. Third, VA is 
bolstering efforts to prevent homelessness, rather than responding 
reactively to the problem after it has become a Veteran's way of life. 
Fourth, VA is working with community partners to increase housing 
opportunities and provide appropriate supportive services tailored to 
the needs of each Veteran. Fifth, VA is providing greater financial and 
employment support to Veterans, and working to improve benefits 
delivery for this vulnerable population. And finally, VA is continually 
expanding its community partnerships, because success in this venture 
is impossible without the contribution of many partners in the 
community.
Outreach and Education
    VA outreach and education initiatives include a national effort to 
offer Veterans and others a way to contact VA at any time. The National 
Call Center for Homeless Veterans (NCCHV) provides 24/7 real-time 
access to VA staff for information, assistance, and local referral 
support to homeless and at-risk Veterans, family and friends of 
Veterans, and community organizations and concerned others. NCCHV 
immediately responds to the calls, and links the callers to VA medical 
center homeless program staff across the United States and its 
territories, for help and assistance. NCCHV received over 32,000 calls 
in FY 2011 and has already received over 14,000 calls in FY 2012.
    VA conducts homeless outreach at shelters, community events, and in 
courts, local jails, and State and Federal prisons. VA also 
collaborates with community organizations at Stand Downs--outreach 
events designed to connect homeless Veterans with community resources 
and VA health care and benefits assistance. VA representatives attended 
more than 200 homeless Stand Downs in calendar year 2011. These efforts 
also complement one of the most critical methods for engaging homeless 
Veterans in services: sending VA staff to the streets and shelters to 
work with them directly. Many Veterans, but particularly those who have 
battled chronic homelessness, need skillful and repeated attempts to 
engage them in the care they need. Along with our community partners, 
VA has 415 staff members across the country engaged in outreach every 
day.
Treatment
    VA recognizes that a plan to end Veteran homelessness will not be 
effective without a comprehensive suite of services for those with 
chronic and persistent health, mental health, and substance abuse 
disorders. Many Veterans who are homeless struggle with substance 
abuse; in fact, reports have indicated that approximately 55 percent of 
homeless Veterans have a substance use disorder which, if untreated, 
can keep them from returning to or sustaining independent living and 
gainful employment. VA's Health Care for Homeless Veterans Substance 
Use Disorder (HCHV SUD) Specialists are playing a critical role in 
homelessness prevention, as they are positioned to provide rapid 
treatment and stabilization to Veterans in housing who, in the past, 
would often return to homelessness if they relapsed. At the close of FY 
2011, VA saw a 95 percent hiring rate for HCVD SUD Specialists funded 
in the fiscal year. In addition, VA plans to open three new Domiciliary 
Care for Homeless Veterans (DCHV) programs in Denver, Philadelphia, and 
San Diego. These facilities will provide state-of-the-art, high quality 
residential rehabilitation and treatment services for homeless and at-
risk-of-homeless Veterans, with multiple and severe medical conditions, 
mental illness, addiction, or psychosocial problems.
Prevention and Rapid Rehousing
    VA believes the most economically efficient way to eliminate 
homelessness is to prevent its occurrence. Unlike VA's traditional 
homeless programs, which focus on the treatment and rehabilitation of 
the individual Veteran, our homelessness prevention and rapid rehousing 
efforts address those Veterans and their families who are at immediate 
risk for becoming homeless, or have recently become homeless. According 
to the 2010 Veterans Supplemental Report to the Annual Homeless 
Assessment Report (AHAR), 13 percent of individual Veterans in poverty 
became homeless at some point during the year, compared to 6 percent of 
adults in the general population. VA's SSVF Program helps Veterans and 
their families stabilize following a successful housing placement, by 
providing the support necessary to ensure that they are able to sustain 
their housing and have access to VA and other community-based services. 
For Veterans who have been chronically homeless, such support is 
ongoing, readily accessible, and attached to housing.
    Moreover, through the SSVF Program, VA awarded in FY 2011 nearly 
$60 million in funding to non-profit community organizations with 
strong track records of providing comprehensive services to homeless 
Veterans and their families. In FY 2012, VA is offering an additional 
$100 million in funding for community organizations through the SSVF 
Program.
    Incarceration is one of the most powerful predictors of 
homelessness; thus, outreach to justice-involved Veterans is a key part 
of VA's prevention strategy. The mission of VA's Veterans Justice 
Programs is to engage Veterans involved in the justice program at any 
point in the continuum (arrest, involved in a treatment court, 
incarcerated in jail and prison serving a sentence), in comprehensive 
VA and community services that will prevent homelessness, improve 
social and clinical outcomes, facilitate recovery, and end Veterans' 
cyclical contact with the criminal justice system. In FY 2011, VA 
served 11,679 Veterans reentering the community after serving a term in 
prison, and worked with 15,706 justice-involved Veterans in local jails 
and courts. This includes work with Veterans involved in drug treatment 
courts, mental health treatment courts, and the 88 Veterans Treatment 
Courts that local communities have developed around the country, in 
response to communities' desire to connect justice-involved Veterans 
with treatment rather than incarceration.
    The Veterans Benefits Administration's (VBA) Home Loan Guaranty 
program helps to prevent homelessness by assisting Veterans who fall 
behind on mortgage payments avoid foreclosure through intervention 
early in the default process, and through outreach to Veterans and 
their loan servicers to pursue all available loss-mitigation options. 
In FY 2011, VA made over 470,000 contact attempts to Veterans and their 
loan servicers in an attempt to save defaulted loans from foreclosure. 
VBA monitors every loan continually, throughout the default episode, to 
resolve defaults and avoid foreclosures whenever possible. The program 
will continue this process, and make adjustments as necessary to 
increase effectiveness and maintain the best possible default 
resolution rate.
    In those unfortunate cases where foreclosure is unavoidable and 
where VA acquires the property, VA offers Veteran borrowers relocation 
assistance to assist them in transitioning to alternative housing. 
Additionally, in any case where VA Loan Technicians know or suspect a 
defaulted borrower will be homeless after foreclosure, they refer the 
Veteran to local homelessness counselors for intervention.
Housing Opportunities
    As mentioned above, HUD-VASH is the Nation's largest supportive 
housing initiative that targets homeless Veterans and their families by 
HUD providing permanent housing with VA case management and supportive 
services to promote successful recovery and housing stability. As of 
January 25, 2012, HUD-VASH houses 29,074 Veterans and their families. 
In addition, the Grant and Per Diem (GPD) Program is VA's largest 
transitional housing program with over 600 projects providing 
approximately 14,000 operational beds nationwide.
    VA's Health Care for Homeless Veterans (HCHV) program has been 
successful in developing and expanding contract residential 
transitional housing services; 131 programs are operational as of the 
first quarter of FY 2012. These programs provide same-day access to 
such safe and stable temporary housing for homeless Veterans 
transitioning from street homelessness, those being discharged from 
institutions, and Veterans who recently became homeless and require 
safe and stable living arrangements prior to being re-housed. HCHV has 
implemented the evidence-based Safe Haven model--a new element in our 
continuum that targets the population of hard to reach homeless 
Veterans with severe mental illness and substance use problems. Safe 
Haven is a community-based, early recovery supportive housing model 
that serves individuals who find it difficult to engage in traditional 
treatment and supportive services.
    In addition, VA's Building Utilization Review and Repurposing 
(BURR) initiative helped identify suitable underutilized or excess land 
and buildings within VA's real property portfolio that could be 
repurposed and aid in ending Veteran homelessness, by providing safe 
and affordable housing for Veterans and their families. As a result of 
BURR, VA began developing housing opportunities at 34 locations 
nationwide for homeless or at-risk Veterans and their families prior to 
the expiration of its Enhanced-Use Lease (EUL) authority, and the 
Administration will be working with Congress to identify future 
legislative authorities to further repurpose several additional 
properties identified by the BURR process.
Financial and Employment Support
    Homeless and at-risk Veterans need access to employment 
opportunities to support their housing needs, improve the quality of 
their lives, and assist in their community reintegration efforts. VA 
has committed to supporting this critical component to eliminating 
homelessness through the Homeless Veterans Supported Employment Program 
(HVSEP). Vocational and employment services are based on rapid 
engagement, customized job development, and competitive community 
placement, with ongoing supports for maintaining employment.
    HVSEP is jointly operated by VHA's Homeless and Compensated Work 
Therapy (CWT) Programs. CWT provides vocational rehabilitation services 
by medical prescription to Veterans, many of whom have extensive 
barriers to employment. Together, CWT and Homeless Programs provide 
vocational assistance, job development, job placement, and ongoing 
employment supports to improve employment outcomes among homeless 
Veterans. To provide these services, HVSEP hired Vocational 
Rehabilitation Specialists (VRS), including several Veterans who were 
homeless, formerly homeless, or at-risk of becoming homeless. As of 
December 31, 2011, 5,596 Veterans received services through HVSEP. Of 
this number, 1,591 Veterans were served through HVSEP-secured 
employment; and 354 VRS positions were filled by Veterans who were 
homeless, formerly homeless, or at-risk of becoming homeless.
    Access to disability compensation and pension benefits is a key 
component in providing financial support and earned entitlement to 
homeless and at-risk Veterans and their families. VBA has full-time 
Homeless Veterans Outreach Coordinators (HVOCs) to oversee and 
coordinate homeless Veterans programs at the 20 VA regional offices 
(ROs) whose states have the largest homeless populations. The remaining 
ROs also have HVOCs with ancillary duties. HVOCs conduct outreach at 
homeless shelters, community events, and VA medical facilities, assist 
homeless Veterans with filing claims, and ensure homeless Veterans are 
properly identified at the ROs to expedite their claims. Furthermore, 
the HVOCs have an effective network and referral system to VHA's 
Homeless Coordinators and local community homeless providers to ensure 
delivery of VA benefits, healthcare, and other supportive services.
Community Partnerships
    VA is committed to fostering strong partnerships with community 
organizations to prevent and end Veteran homelessness. For example, the 
GPD Program relies significantly on the expertise, experience, and 
ingenuity of local community organizations. GPD community providers 
collaborate to enter Veterans' client level data into the local 
continuums of care's HMIS system, promoting greater linkages to 
community services. This allows VA and community partners to respond to 
the needs of all homeless Veterans participating in local community 
services. As previously mentioned, through the GPD Program, community 
partners operate over 600 projects offering over 14,000 beds for 
homeless Veteran transitional housing.
    VA recognizes that no single Federal or state agency of government 
or local organization can end homelessness among Veterans. To that end, 
VA has long maintained close working relationships with Federal 
partners, such as HUD, the Department of Labor (DOL), the Department of 
Defense (DOD), the Department of Health and Human Services, the Small 
Business Administration, the U.S. Interagency Council on Homelessness, 
and others, as well as state, local and tribal governments. Veterans 
Service Organizations also fill a critical role, as do community- and 
faith-based organizations, and the business community. One example of 
these efforts is VA's work to develop better connections with 
prosecutors and judges in the criminal justice system. Another is the 
Homeless Veterans Reintegration Program (HVRP), which involves 
collaboration with DOL. Through this initiative, DOL's Veterans 
Employment and Training Service (VETS) offers funding to community 
groups to help Veterans return to gainful employment.
    Furthermore, each VA medical center and regional office engages in 
meetings with thousands of individuals and organizations across the 
country, to enhance collaborations and improve communications. VA is 
committed to reaching out and building partnerships with reputable 
organizations and individuals who are interested in being part of a 
collaborative solution to ending Veteran homelessness.
                   homelessness among women veterans
    The number of women serving in the military has grown 
substantially, doubling from four percent of all Veterans in 1990 to 
eight percent, or an estimated 1.8 million today. Moreover, the number 
of women Veterans will continue to increase as those who deployed to 
the conflicts in Iraq and Afghanistan leave the active military.
    VA is committed to serving the needs of both male and female 
homeless Veterans through a wide array of programs and initiatives 
specifically designed to help both segments of the population live as 
self-sufficiently and independently as possible. Within the population 
served by VA's homeless programs, women comprise approximately 7.9 
percent. In addition, according to the 2010 AHAR, women Veterans are 
more than twice as likely to be in the homeless population as non-
Veteran women. Some of these women Veterans, like their male 
counterparts, are facing challenges readjusting to civilian life and 
are at risk of becoming homeless. Many are accompanied by their 
children, and have needs particular to keeping both themselves and 
their children healthy, safe, and secure.
    To learn as much as possible about the gender-specific needs of 
homeless women Veterans, VA included requests for information in the 
2011 Community Homelessness Assessment, Local Education and Networking 
Groups for Veterans (CHALENG) survey. In addition, VA has undertaken 
numerous other efforts to gather information about homeless female 
Veterans and their needs. For example, VA researchers are specifically 
looking at the barriers women Veterans face in accessing VA services. 
Furthermore, VA and HUD have been working in coordination over the past 
2 years to jointly collect data for the ``HUD Veteran Homelessness: A 
Supplemental Report to the 2010 Annual Homelessness Assessment to 
Congress.'' VA, HUD, DOD, and community agencies are also collaborating 
to further analyze the data, to develop a more comprehensive picture of 
the prevalence and unique needs of homeless female Veterans who may not 
currently access VA services.
    In collecting data about homeless women Veterans and their use of 
VA homeless services, VA has found:

    <bullet> Eleven percent of HUD-VASH recipients Veterans are women.
    <bullet> Among women participating in HUD-VASH, 28 percent planned 
to live with children when housed.
    <bullet> More than 200 GPD projects have some capacity to serve 
women Veterans. Of the projects that have some capacity to serve women, 
approximately 40 are women-specific. In 2011, five percent of Veterans 
in the GPD program were women, and six transitional programs provided 
specific enhanced services for homeless women and women with families.
                            the way forward
    VA is approaching the midpoint in its 5 Year Plan to End 
Homelessness among Veterans. Although we have made significant progress 
to date, we recognize fully that our goal to prevent and end 
homelessness among Veterans is a complex and difficult task, one 
requiring consistent, measurable, and sustained effort from VA, other 
Federal agencies, State agencies, and community partners. Our targeted 
goals for next two years include:

    <bullet> Continuing to execute VA's strategic plan through 
aggressive outreach and communication to homeless and at-risk Veterans;
    <bullet> Implementing Homeless Patient Aligned Care Teams (H-PACT) 
at 32 sites with the goal of eliminating barriers to quality health 
care, and improving housing outcomes for Veterans who are homeless or 
at imminent risk of homelessness;
    <bullet> Focusing on the prevention of homelessness and rapid 
rehousing among Veterans by providing $100 million in community-based 
grants through the SSVF program;
    <bullet> Implementing Housing First in 14 high-profile communities. 
This strategy supports VA's goal to rapidly house vulnerable and 
chronically homeless Veterans in HUD-VASH permanent supportive housing;
    <bullet> Continuing to provide 24/7 outreach through the National 
Call Center for Homeless Veterans;
    <bullet> Coordinating with HUD on the release of the 2012 point-in-
time (PIT) data on homelessness among Veterans;
    <bullet> Working with the United States Interagency Council on 
Homelessness to secure commitments from other Federal partners to 
assist Veterans;
    <bullet> Coordinating the grant review, award development, and 
notification for Special Needs Grants for Homeless Veterans Service 
Providers, to continue to deliver enhanced services for homeless 
Veterans who are seriously mentally ill, women Veterans (including 
women with children), elderly Veterans, or those who may be terminally 
ill;
    <bullet> Coordinating with VBA's Loan Guaranty Service and numerous 
parties interested in increasing housing availability, with a 
particular focus on VA foreclosed properties, and increased access to 
other sources of inexpensive permanent housing opportunities;
    <bullet> Hiring 200 additional VBA HVOCs to expand prevention-
focused outreach and coverage at VHA facilities and in rural areas; and
    <bullet> Implementing the Veterans Retraining Assistance Program 
for unemployed Veterans as authorized in the VOW to Hire Heroes Act of 
2011.

    VA requests favorable and prompt Congressional consideration to 
extend the authority for the SSVF Program to prevent/address 
homelessness. The SSVF Program provides supportive services to very 
low-income Veteran families in or transitioning to permanent housing. 
Funds are granted to private non-profit organizations and consumer 
cooperatives that assist very low-income Veteran families by providing 
a range of supportive services designed to promote housing stability. 
The SSVF Program is the only VA homeless program that is national in 
scope that can provide direct services to both Veterans and their 
family members; however, the current law (38 U.S.C. Sec. 2044) only 
provides an appropriation authorization through FY 2012. VA proposes to 
amend section 2044 to extend the authorization of appropriations to FY 
2013 and beyond.
    VA is also proposing legislation to extend VA's Homeless Grant and 
Per Diem Program to support a ``transition in place model'' toward 
permanent housing. By allowing Veterans to ``transition in place'' to 
permanent housing, the Department would provide a valuable alternative 
for Veterans who may not need or be interested in participating in HUD-
VASH. Proposed legislation would allow VA to fund per diem payments for 
transitional housing at 1.5 times the maximum per diem rate to enable 
Veterans to remain in their housing unit, i.e. ``transition in place.'' 
In addition, VA asks Congress to extend authority to provide expanded 
services to homeless Veterans. Title 38 U.S.C. Sec. 2033 authorizes VA, 
subject to availability of appropriations, to operate a program to 
expand and improve the provision of benefits and services to homeless 
Veterans. The program includes establishing sites under VA jurisdiction 
to be centers for the provision of comprehensive services to homeless 
Veterans in at least each of the 20 largest metropolitan statistical 
areas. Section 2033 will expire on December 31, 2012; therefore, VA 
requests that Congress extend this authority through December 31, 2016. 
VA also asks that Congress extend the authority in section 2041 of 
title 38, U.S.C., to sell, lease, or donate properties VA obtains 
through loan guaranty program foreclosures to nonprofits that agree to 
shelter homeless veterans. If section 2041 is not extended, it will 
expire December 31, 2012. Finally, VA asks that Congress extend 
authority for the Advisory Committee on Homeless Veterans. VA's 
authority to operate this Committee under title 38 U.S.C. Sec. 2066(d) 
will expire on December 30, 2012; VA requests that Congress extend this 
authority through December 31, 2016.
    The BURR initiative, mentioned above, helped identify unused and 
underused buildings and land at existing VA property with the potential 
for repurposing to Veteran housing. Although the Department's Enhanced 
Use Lease authority has expired, VA is prepared to work with Congress 
on future legislative authorities to enable the Department to further 
repurpose the properties identified by the BURR process.
    In the coming year, VA appreciates Congressional support and 
interest in efforts to end homelessness among our Nation's Veterans. 
This concludes my prepared statement, and my colleagues and I are 
prepared to answer your questions.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Patty Murray to 
Pete Dougherty, Acting Executive Director, Homeless Veterans Initiative 
              Office, U.S. Department of Veterans Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Mark Begich to Pete 
  Dougherty, Acting Executive Director, Homeless Veterans Initiative 
              Office, U.S. Department of Veterans Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Ms. Curry. Hello, everyone, and I want to go ahead and 
thank you all for having me today. This is definitely an honor 
to be able to open up and talk about my testimony.
    I started off as a veteran during Operation Iraqi Freedom. 
I am from Cleveland, OH. I joined the military in 2008. As I 
served overseas and came back to the United States, I suffered 
many difficulties finding employment.
    So, I recently relocated to Atlanta, GA, because I had a 
job opportunity available for me almost immediately. So, I 
relocated; and during my process of living in Atlanta, Georgia, 
a lot of different circumstances forced me to have to move back 
to Cleveland, OH, where I was originally stationed at.
    Coming back to Cleveland, OH, it was very hard to find a 
job. So, basically I bounced around from different relatives' 
homes, different friends; and it just became definitely a 
burden because of lot of people that I knew suffered their own 
hardships and no one could afford to accommodate another adult.
    So, that force me to have to contact the VA. I contacted 
the Ohio Coalition for the Homeless, and I spoke to a veteran 
by the name of William and he directed me over to a female by 
the name of Toni Johnson.
    Toni Johnson is a representative of the Women's Homeless 
Outreach Program and she herself actually opened up a lot of 
possibilities for me to get back on my feet.
    She told me about the Grant and Per Diem program. I lived 
in a homeless shelter, a women's homeless shelter known as the 
West Side Catholic Center.
    There were other things that were available for me, such as 
the employment connections, and I met with a representative by 
the name of Angela Cash and she basically helped me to get a 
job at the Cleveland Clinic.
    So, she offered me classes, computer training, basically 
everything that I needed to be able to be readily available for 
work. Also she had her own nonprofit organization known as the 
Forever Girls at Heart, which is a group of beautiful women who 
help me get all of the things that I needed for my apartment.
    Now, with that being said, I will be moving into my place 
as of Friday if everything goes as planned, and I do have 
everything that I need.
    So, the VA definitely went above and beyond to make sure 
that I did not remain a homeless veteran.
    Chairman Murray. Thank you very much for your testimony. We 
really appreciate that.
    Mr. Dougherty, we heard from Ms. Strickland on the first 
panel who reached out to the VA and was told there is no help, 
literally hung out with nothing. We just heard Ms. Curry, 
obviously a totally different story.
    With a no-wrong-door policy, it is unacceptable that more 
help was not given to Ms. Strickland and others like her.
    Ms. Curry, I wanted to ask you. What was the turning point 
that lead you to the VA?
    Ms. Curry. Actually, it was a very long time before the 
resources were actually known to me. I had to do some research. 
I actually contacted Military OneSource, which is a very 
helpful resource who helps you basically get to a lot of 
different resources.
    But what led me to the VA was the fact that I was just 
tired of being homeless. I was tired of not having a stable job 
and having to ask people for things. I am the type of person 
where I like to get everything on my own. So, it was definitely 
a challenge for me. So, I had to make an adult decision and go 
to a shelter where the HUD-VASH program would be available for 
me.
    Chairman Murray. OK. Mr. Dougherty, both the GAO and 
Inspector General found that VA has to improve the way that it 
serves homeless women veterans, especially those who have 
experienced military sexual trauma.
    I am deeply concerned about women veterans, any veterans, 
but women veterans being placed in a place with no privacy, no 
locks on doors, no locks on bedrooms. It is crucial that those 
should be available.
    I understand that the Department is developing this new 
gender specific, privacy, safety, and security standard for 
facilities; and I want that done quickly obviously.
    But I want to ask you: Is that enough to make sure we have 
protection for women, to make sure there is no registered sex 
offenders, are we following that? Especially for women who are 
victims of military sexual trauma, are we really making sure we 
are focused on those issues?
    Mr. Dougherty. Senator, I clearly believe that we are 
moving in the direction. I think we have embraced the idea of 
moving forward.
    Ms. Pape and her staff are working very closely on making 
those corrections. I would also say that one of the things that 
we have, and we are asking the Committee to do, is to change 
the contract care authority requirement.
    Currently, under law you have to have a serious mental 
illness diagnosis in order to get contract residential care. I 
think as the Inspector General just said a few minutes ago that 
one of the issues is that in some communities we may not have 
enough need to develop a whole program that is big enough to 
support a community program.
    In those places what we need is we need more flexibility in 
contracted residential care in order to make that work.
    Chairman Murray. OK. Well, let me be very clear. Given the 
strong oversight that this Committee has done leading up to 
this hearing, I think it is very clear we are going to be 
following this carefully. We want to make sure this is 
implemented. It is absolutely a top item for all of us.
    Senator Burr.
    Senator Burr. Thank you, Chairman.
    Mr. Dougherty, just one. I want to highlight the progress 
that we have made. There were deficiencies in our structure as 
to how I think we attacked the homelessness problem within the 
VA, and I think you have done a lot to move us in the right 
direction.
    A recommendation: I think it is very important to maybe get 
on the phone with people like Scott Rogers. Those community 
partners that you have that, regardless of who looks at it, 
they sort of check all the boxes all the way around to figure 
out what is missing in the VA strategy of how to look at this 
in a holistic way.
    Scott is a pretty assertive person. I have seen flexibility 
from a VA hospital that I did not think was possible and it may 
have to do with a great administrator. It may have to do with a 
medical staff that understands how to save costs by treating 
early.
    I think Scott would be the first to say they could not have 
accomplished what they had if they had not had the partner of 
that VA hospital working outside the box on some of the 
problems.
    What I want to urge you to do and your entire staff is let 
us start thinking outside the box on solving this. The last 
thing on this Committee that we are holding anybody to a 
standard is to live within the framework of what we have done 
in the past. If we do that, our expectations cannot be any 
different than the results of the past.
    The Secretary has stated he wants to end this. Well, if we 
are going to end it, we are going to have to work with more 
partners who think more outside the box, who design things that 
maybe even unique to their community. But it is going to 
involve a partnership with all aspects of VA.
    I am not sure that that buy-in exists today. If it does, it 
is because we have a strong community partner that has 
convinced the local entity to do it.
    It would be much more natural if, in fact, that was built 
into our model and pushed from within VA and not just pushed or 
highlighted in the oversight process.
    So, I challenge you. Let us reach out to these folks. Let 
us understand what they need. Let us understand how we will be 
successful and then work with us to try to incorporate those.
    Again, I thank you.
    Chairman Murray. Thank you very much. We do have a series 
of votes that are called, and I have to get to the Floor for 
part of that. I am going to turn the gavel over to Senator 
Begich for the final comments. I want to thank all of our 
witnesses and let you know that we are going to continue to 
follow up. We will have more questions that we will submit to 
you.
    Senator Begich, thank you.
    Senator Begich [presiding]. Thank you very much, Madam 
Chair. I will be very quick and then I know, Senator Boozman, 
you may have a quick question or two so I will try to limit 
mine quickly here.
    I will submit something for the record. I have several that 
I have, and I will share that with you. But first, I want to 
make sure just any time we have these discussions they put on 
the record that I am requesting especially in rural areas that 
we have additional HUD and VASH vouchers.
    As we know, veterans are moving more and more to rural 
areas and there is a great need. Of course, Alaska, there is no 
other place more rural than Alaska. So, I want to make sure 
that that is clear.
    But you have a really good program in Anchorage and Mat-Su 
that is working in Alaska, support services, veterans family, 
working with the Catholic social services organization. It 
seems to be having some great success.
    I guess here is my question. I think as Senator Burr said 
and others we have lots of programs in every State. The 
question is do you have a process that, I do not know if you 
have, I will use this phrase carefully, an advisory board or 
group of these organizations that, on a regular basis, are 
critiquing and adding information to, not only on an ad hoc 
basis where you call them up and say, you know, we have gotten 
a call from a Senator and now we need to respond.
    And then the second part of this question is: Is there a 
model that says maybe in this arena the role of the VA is 
really a granting agency and we are going to be grant 
administers and we are going to have folks in the private 
sector, nonprofit sector, and potentially in the for-profit 
sector depending on what services are needed, that will then 
connect these things?
    And I use the Catholic social services as an example. It 
seems to be in our State a successful model. Any comments on 
that?
    Mr. Dougherty. Senator, we have both a national advisory 
group that answers our questions but we also have a meeting 
process that occurs through each VA medical center and that is 
an opportunity for community service providers, local 
governments, and veterans themselves to come.
    I have been to a couple of those meetings myself. I know 
Lisa Pape has as well. That really is to meet the local needs 
of the local community, look at the local strengths and 
weaknesses within the local community, and to develop a local 
plan of how to address those needs.
    The other comment that you made is absolutely correct, and 
that is that what we are doing in a going forward way is more 
and more of what we are doing is going out and working with the 
community. All of the prevention effort is really community 
led.
    Senator Begich. If I can just say one more quick thing and 
I appreciate that. That is great. I guess I want to do some 
additional follow-up with regard to that.
    But also in the model as I mentioned, the SSFF which is the 
Catholic social services program partnering with you, you have 
some caps within there, so much for direct dollars and so much 
for administration.
    When I, as a former mayor and as a person, actually almost 
30 years ago or 25 years ago, had to manage grants, we put 
artificial caps like that in there, and I say ``artificial'' 
because they are based on some modeling that someone did in 
some room, we really restrict the innovation of these 
nonprofits.
    Why have those caps? Why do not just say, and I can tell 
you Catholic social services will tell you in Alaska these caps 
are a problem. Even though the program is successful, they are 
not allowing them to expand a little bit and give a little so 
they are trying to meet this 30 percent number.
    Why not just eliminate those caps and look at the success 
of the program instead? And if you answer yes, I am going to 
tell you what the answer should be, then next is you should do 
that immediately.
    Mr. Dougherty. The model, if you will, was taken after what 
was done on a community experience with the Department of 
Housing and Urban Development. What we tried to do is to give 
some perspective of what we thought we wanted to achieve with 
it.
    I can tell you that, obviously, in a going-forward way we 
are always looking at what those needs are and what people are 
giving us in terms of feedback. So, there may well be some 
changes and additional flexibility coming forward.
    Senator Begich. That is the answer. Flexibility in the caps 
would be great because what works in HUD may not work in VA. 
What works in New York will definitely not work in Kwethiuk, 
AK. I will guarantee you that.
    Mr. Dougherty. I understand.
    Senator Begich. Senator Boozman, I was going to call on you 
next but Senator Brown has entered and he is on the list first, 
then I will come right to you.
    Senator Brown.
    Senator Brown of Massachusetts. I will be brief. I know 
that Senator Boozman has some questions he wants to get to, but 
I do note the fact that we have Ms. Curry here. It was nice to 
meet you out back. You have a success story where VA helped 
you. Yet we had on the other panel somebody not so fortunate.
    What that shows me is a lack of consistency. We obviously 
have to make sure that we have more like Ms. Curry's story. So, 
that is my statement.
    Mr. Dougherty, how is VA working to improve data collection 
so that VA and Congress have information to effectively 
allocate the resources to ensure homeless veterans receive the 
needed services?
    That is based on the GAO report saying that, you know, the 
information is lacking.
    Mr. Dougherty. Do you want to?
    Senator Brown of Massachusetts. Either one.
    Mr. Dougherty. Ms. Pape.
    Ms. Pape. We have been collecting data on homeless veterans 
for over 20 years now. What we have done to really enhance in 
the last several years is roll over into an electronic system 
and enhancing the kind of data that we are asking for so there 
are more questions related to people's experience, their 
medical issues, their housing issues prior and leaving the 
program.
    But what really is where we are shooting for is connecting 
with the community and aligning our data collection system with 
the homeless management information system that the continuums 
of care do so that we have a coordinated and integrated 
collection system to look at what veterans are entering both 
the VA and the community and the capacity, bed capacity, and 
things like that.
    Senator Brown of Massachusetts. And I want to apologize, 
for the record, people see me bouncing in and out. I am 
actually in a Government Regs hearing in the next building. So, 
I have been trying to be two places at once, which usually does 
not work well. So, I appreciate everybody's patience, and so 
you understand what I am up against today.
    I was concerned in seeing that women in particular took an 
average of 4 months before securing HUD-VASH housing and 30 
days for GDP programs. What is being done to ensure that these 
women veterans receive a referral for temporary housing in a 
more timely manner? Either of you.
    Ms. Pape. Thank you, sir. We already have a policy in place 
in which all medical centers have to have a referral system in 
place to either house veterans in one of their in-patient beds 
or residential beds or have a partnership in the community to 
house a female veteran or any veteran within at least 3 days of 
finding them in a shelter.
    Obviously, we heard that there needs to be some 
improvements through the Inspector General, and we are working 
with our medical centers to continue coordinating to do more 
contract residential housing so that we have those 
opportunities for every veteran in every site.
    Senator Brown of Massachusetts. And just two quick follow 
ups, and I will defer back any of my time. Number 1, how do we 
make sure that the veterans who are getting the assistance are 
actually homeless?
    Number 2, Senator Begich may have an interest in this: how 
do we make sure that the veterans have access to Grant and Per 
Diem programs in underserved areas, and how do these programs 
align with the VA spending priorities?
    Mr. Dougherty. One of the things, we have Maura Squire is 
here with the Veterans Benefits Administration out of the 
Boston regional office, but one of the first things we have to 
do is we have to prove the identification, is the person who is 
making contact with us a veteran.
    Then the question is how do we make sure that the person 
who is coming to us is in need of services and really is in 
need of services and not just a low-income person, for example.
    That has to be done by having people who can make the 
assessment and do the assessment that the veteran is, in fact, 
a veteran and also that there is an assessment made what 
service is appropriate for the veteran to receive.
    That is a process that does take a little bit of time. One 
of the things that we do ask for is to have more staff like 
Maura who can make that assessment of the veteran being a 
veteran eligible for services.
    Senator Brown of Massachusetts. Maura, thank you for coming 
and certainly during Jerry McDermott or Austin Lord, anyone at 
my office feel free to have a relationship with you, we take 
our veterans' issues very, very seriously.
    We actually have a wall in our office covered with letters 
thanking us for helping not only with housing but benefits and 
kind of cutting through the red tape, and that is the biggest 
challenge. Thank you for what you are doing.
    I will defer any of my time back to you, Mr. Chairman, 
thank you.
    Senator Begich. Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. Just real 
quickly, thank you Ms. Curry for being here. Again, you put a 
face and a person to a statistic and that is so important. We 
appreciate you taking the time to come and tell your story.
    I think that the Inspector General report is disturbing, 
very disturbing in the sense that in regard to the safety and 
security of women in some of these facilities and especially 
some of them having similar problems or, you know, potential 
problems in their deployment or whatever.
    But I think I can speak for all of the Committee and 
Congress in general that we are very, very concerned and 
certainly we have got to figure out that is not tolerate it, 
period.
    I guess my question would be: are there any Congressional 
tools that we need to give you? Is there any way that the 
Committee can help you in regard to dealing with that or do you 
need any additional legislation? Do you need any additional 
whatever?
    Mr. Dougherty. Well, we have several legislative issues 
that we are bringing before the Committee. One is to get more 
benefits and staff so we can make sure those veterans get 
timely benefits because what happens in the stories that you 
are hearing, many of the veterans that we are interacting with 
if they could get access to benefits quicker and faster, 
whether it is benefits to get back into education or vocational 
rehabilitation services or employment-related services, those 
things are very important. Just the identification because some 
do not have a veteran paper, if you will, when they are first 
going and applying. The other is the prevention.
    Senator Boozman. I do not mean to interrupt. But what is 
the turnaround time as far as the application and the 
beginning?
    Mr. Dougherty. Well, in the Grant and Per Diem program, we 
are under a guidance that says within 3 days we have to verify 
a veteran's status. That is our standard: 3 days. That is 
statutorily provided for. But it is often times difficult for 
us to make that determination as quickly as it needs to be done 
in that program.
    Senator Boozman. Very good.
    Mr. Dougherty. But in the other, the prevention, clearly, 
Senator, I have been doing this for a long time and the issue 
for us is what we need to do to stop the inflow, and the inflow 
I am convinced is going to be most effectively taken care of by 
working with community providers across the Nation who have the 
flexibility and the independence to work in ways that we inside 
the government cannot do. They have the flexibility to do 
things that we in government cannot do as well.
    We give them that permission to do that because, as Senator 
Begich points out and certainly I know your State well, the 
difference in the States of Arkansas and Alaska are many, and 
they are very different from the States of Rhode Island and New 
York.
    So, we have to have program flexibility that gives those 
local community providers the ability to stop veterans from 
ever becoming homeless and going through the indignity of that 
experience.
    Senator Boozman. Very good. Thank you, Mr. Chairman, and 
thank you for your hard work, all of you.
    Senator Begich. Thank you very much. I have one question 
that I will end on, and then I may submit more for the record. 
I want to state the question and you can answer it at a later 
time.
    That is, with housing homeless veterans and dealing with 
mental health services, you know, there in Alaska--and this is 
a very Alaska-centric question on mental health centers and 
also the Alaska Native Tribal Health Consortium, behavior 
health aids--I wonder: why replicate a system when there 
already is one in a very rural area that maybe the VA can tap 
into through a coordinated resource allocation to make it 
happen.
    That is the question I am going to submit. I want you to 
think about that, again, like do not create two parallel 
tracks. How do we make one and maximize the capacity? That is 
the question.
    Let me again thank the witnesses on both panels for sharing 
their personal stories, their experience. We appreciate each of 
you being here, being part of this panel. We have reached the 
halfway point with Secretary Shinseki's plan to end 
homelessness. It is clear we have more work to do. We all 
acknowledge that.
    This Committee will continue to do the oversight necessary 
and the conversation back and forth from providers and people 
who are experiencing homelessness to understand what more we 
can do.
    The Committee looks forward to working on this issue now 
and into the future.
    The record will be kept open for questions for the next 
week. So, anticipate some. I know I have some I will submit.
    Again, we thank you all very much for participating in 
today's hearing.
    The hearing is now adjourned.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


   Prepared Statement of the National Coalition for Homeless Veterans
    Chairman Patty Murray, Ranking Member Richard Burr, and 
distinguished Members of the Senate Committee on Veterans' Affairs: The 
National Coalition for Homeless Veterans (NCHV) is honored to present 
this Statement for the Record for the March 14, 2012, hearing on 
``Ending Homelessness Among Veterans.''
    At a time of significant Federal budget constraints, there is an 
increasing need for the Federal Government to leverage existing 
resources and maximize its investments. NCHV represents more than 2,100 
community- and faith-based organizations nationwide that serve veterans 
in crisis--these are the ``creative geniuses'' to which Secretary of 
Veterans Affairs Eric Shinseki refers when discussing the pillars of 
his department's Five-Year Plan to End Veteran Homelessness. More than 
600 of these organizations, through the VA Grant and Per Diem Program, 
represent local integrated service networks, which provide housing and 
services to more than 30,000 homeless veterans each year.
    While the scope of this hearing deals primarily with progress made 
by the Department of Veterans Affairs, and its Federal agency and 
community-based partners, we want to recognize and commend the Senate 
Committee on Veterans' Affairs for its leadership in making possible 
the tremendous success of the Five-Year Plan to date. Your legacy of 
bipartisan support for the programs serving this Nation's most 
vulnerable heroes has helped reduce the number of homeless veterans 
each night in America to 67,495--that estimate represents a more than 
70% reduction since 2004.
    We cannot guarantee the men and women who serve our Nation in a 
military uniform will not return home with wounds and hardships they 
will need help to overcome, but as a nation we are closer than we have 
ever been to ensuring none of them will ever again be left to fend for 
themselves on the streets when they do.
    That is the promise of the Five-Year Plan to End Veteran 
Homelessness, and this Committee's work has brought us within reach of 
that goal by 2015.
                                hud-vash
    Perhaps the most critical development in the Five-Year Plan, the 
expansion of the HUD-VA Supportive Housing Program (HUD-VASH) has made 
housing available to men and women with serious mental illness, other 
disabilities, and chronic substance abuse. Nearly 11% of these 
dedicated Section 8 vouchers have been awarded to low-income, single 
veterans with dependent children.
    Thanks in large part to this Committee, about 7,500 of the HUD-VASH 
vouchers zeroed out in the FY 2011 HUD appropriations bill were 
restored, and another $75 million was approved in FY 2012 to bring the 
number of vouchers to 48,000--80% of the 60,000 goal of both HUD 
Secretary Shaun Donovan and VA Secretary Eric Shinseki.
    The President's request for $75 million for HUD-VASH in the FY 2013 
budget request would bring the authorization to both agencies' original 
goal more than a year earlier than the most ambitious projections, and 
would make ending chronic homelessness among veterans a virtual 
certainty.
                       grant and per diem program
    The VA Grant and Per Diem Program (GPD)--which provides 
transitional housing with supportive services--has had a significant 
impact in decreasing the number of homeless veterans in need of 
assistance each day. Based on FY 2011 VA program evaluation data, 
approximately 30,000 homeless veterans received services through GPD 
and 50% of those participants advanced to permanent housing upon 
completion of the program. According to the VA CHALENG Reports from 
2005 through 2009, the reduction in the number of homeless veterans 
during that period was estimated to be about 57.2%.
    After two decades of program development, VA research has shown 
most homeless veterans who enter GPD programs are able to regain 
control of their health and other personal issues and advance to full 
employment and independent living in less than half of the two-year 
eligibility period for the program.
    However, the majority of those clients are still at risk of 
homelessness after they exit the program because, in most communities, 
there is a critical shortage of affordable housing for low-income and 
extreme low-income individuals and families. Providing access to safe, 
affordable housing is the most critical component of the VA Five-Year 
Plan and the Federal Strategic Plan to Prevent and End Homelessness.
    The approval of the Senate Committee on Veterans' Affairs to 
increase GPD authorization by $100 million in FY 2012 to a record $250 
million is vital to creating veteran access to long-term and permanent 
housing in communities where affordable housing is in short supply or 
nonexistent. Most homeless veterans do not need permanent supportive 
housing (HUD-VASH), and could advance out of the GPD program much more 
rapidly through innovative strategies like Transition in Place, which 
will be a more viable option with this funding increase.
                         prevention strategies
    Your recognition of the importance of the Supportive Services for 
Veteran Families (SSVF) grant program is another essential component of 
the Five-Year Plan to End Veteran Homelessness. Fashioned after the 
incredibly successful Homelessness Prevention and Rapid Re-Housing 
Program, this funding will help communities prevent veteran 
homelessness through short- to medium-term rental assistance, and rapid 
re-housing initiatives--including first- and last-month rent deposits, 
utilities hook-up fees, and basic furnishings.
    More than 1.2 million families received help and avoided 
homelessness under the HPRP program; unfortunately veterans were 
severely under-represented among program beneficiaries. Funding 
increases the Committee supported will help address that inequity. The 
$300 million in the President's FY 2013 Budget request will go a long 
way in driving down the number of homeless veterans by increasing 
homeless veterans' access to housing, and services to help many others 
remain housed.
    One other critical program, the Homeless Veterans Reintegration 
Program (HVRP)--administered by the Department of Labor-Veterans' 
Employment and Training Service (DOL-VETS)--remains underfunded at just 
above $38 million. This Committee has worked to help reauthorize the 
program at the $50 million level, yet the Labor Department's FY 2013 
Budget submission does not meet this amount.
    As the Nation's only employment program wholly dedicated to serving 
homeless veterans, most of whom have serious and multiple barriers to 
re-entering the workforce, HVRP has a vital function in the Plan to End 
Veteran Homelessness. Given the high veteran unemployment rate, 
especially among young veterans, NCHV does not foresee an imminent 
drop-off in demand for the program's services.
                              in summation
    The community-based homeless veteran service providers NCHV 
represents have worked closely with the Departments of Veterans 
Affairs, Housing and Urban Development, and Labor to help draft and 
implement the Five-Year Plan to End Veteran Homelessness--both on the 
local and national levels.
    And we are pleased to report on the progress of the Five-Year Plan. 
We believe the essential components of the Plan are in place and are 
advancing--access to housing, health services, income stability, and 
prevention strategies. We have reached the midway point in the Plan, 
and have witnessed a historic transformation in the service provider 
community that positions the Federal Government and its allies to reach 
a goal many believed was virtually unattainable just a few years ago.
    NCHV has been at the center of the campaign to end veteran 
homelessness since 1990, and knows better than most the role that the 
Senate Committee on Veterans' Affairs has played in bringing this 
Nation to this moment in history. We have been proud to serve alongside 
you, and will be with you when our shared mission is finally 
accomplished.
            With profound gratitude,
                                             John Driscoll,
                                                 President and CEO.

                                              Matt Gornick,
                                         Assistant Policy Director.


                                  <all>

</pre></body></html>
